U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products



FOOD SAFETY AND INSPECTION SERVICE
     DISTRICT ENFORCEMENT
          OPERATIONS
     COMPLIANCE ACTIVITIES




                        Report No.
                        24601-4-At
                        June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:         June 21, 2000

REPLY TO
ATTN OF:      24601-4-At

SUBJECT:      District Enforcement Operations Compliance Activities

TO:           Thomas J. Billy
              Administrator
              Food Safety and Inspection Service

ATTN:         Margaret O’ K. Glavin
              Associate Administrator

This report presents the results of our audit of the Food Safety and Inspection Service’ s
compliance review program. This review is part of the Office of Inspector General’ s food
safety initiative, which also included the implementation of the Hazard Analysis Critical
Control Point System, imported meat and poultry inspection process, and the agency’ s
procedures established for testing meat and poultry products. Your June 6, 2000,
response to the official draft report is included as exhibit I with excerpts and the Office of
Inspector General’ s position incorporated into the Findings and Recommendations
section of the report. Based on your response, management decisions have been
reached on Recommendations Nos. 1, 4, 5, 6 and 7. Please follow your agency’ s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial
Officer.

Management decisions have not yet been reached on Recommendations Nos. 2, 3, and 8.
Management decisions can be reached once you have provided the additional information
outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/
ROGER C. VIADERO
Inspector General
                             EXECUTIVE SUMMARY

                          FOOD SAFETY INSPECTION SERVICE
                         DISTRICT ENFORCEMENT OPERATONS
                               COMPLIANCE ACTIVITIES

                               AUDIT REPORT NO. 24601-4-AT


                                             This report represents the results of our
           RESULTS IN BRIEF                  audit of the Food Safety and Inspection
                                             Service (FSIS) District Enforcement
                                             Operations (DEO) compliance activities1.
              This review was part of the Office of Inspector General’s (OIG) food
              safety initiative, which also included the implementation of the Hazard
              Analysis and Critical Control Point (HACCP) system, the controls over
              imported meats, and the procedures established for laboratory
              testing of meat and poultry products. The objective of the audit was
              to determine whether FSIS’ policies, procedures, and controls were
              adequate to provide an effective compliance review program to
              detect and prevent food safety violations and to ensure industry
              compliance with the provisions of meat and poultry inspection laws
              and regulations.

                 9 Code of Federal Regulations, Part 300, gives FSIS the
                 responsibility of ensuring that meat and poultry entering consumer
                 channels is wholesome. To meet the responsibility, FSIS performs
                 compliance reviews of non-federally inspected firms, such as
                 warehouses, processors, distributors, transporters, and retailers.
                 Compliance reviews are initiated for a variety of reason. For
                 example, FSIS may initiate a compliance review to respond to a
                 consumer complaint, to carry out its random reviews of firms, or to
                 followup its reviews of previous violators. Violators of meat and
                 poultry inspection laws can be cited, imposed with administrative
                 sanctions, or even prosecuted for criminal actions.

                 Several systemic deficiencies are having an impact on FSIS’ ability to
                 meet its compliance obligations. Most importantly, FSIS needs to
                 enhance its existing plan to ensure compliance reviews are sufficient
                 to detect and prevent major food safety violations and ensure industry

1
 The audit scope was limited to FSIS compliance and enforcement activities at non-federally inspected firms.
We did not assess compliance with HACCP by federally inspected establishments and FSIS’ administrative
enforcement actions such as fitness determinations and consent and plea agreements.

USDA/OIG-A/24601-4-At                                                               Section IV, Page i
              compliance with the provisions of meat and poultry inspection laws
              and regulations.

              v FSIS’ compliance reviews were not systematic and did not have
                review steps for 13 of the 14 types of firms the agency is
                responsible for overseeing. FSIS’ plan should, at a minimum,
                define the universe of high-risk firms it is required to review within
                each district’s jurisdiction and the scope of the reviews (what
                areas to inspect, records review to perform, etc,). FSIS’ plan
                should also emphasize the targeting of resources to heavy
                populated areas, and those areas that are geographically large.
                For example, FSIS’ data shows for the Albany, New York, district,
                that the majority of violations occur in the New York City
                metropolitan area. However, the majority of FSIS random reviews
                are conducted in the Albany, New York area, where far fewer
                violations occur. We found that under the agency’s existing plan,
                compliance officers did not know the number of firms subject to a
                compliance review in their districts, did not review the same
                processes at similar firms, or in several instances, did not
                document cases for minor violations of the meat and poultry
                inspection laws.

              v FSIS does not have timeframes and procedures for monitoring
                and tracking the progress and completion of violation cases at the
                headquarters, district, and field office levels. The timeliness of
                processing case reviews was at the discretion of headquarters,
                district, and field offices. The average number of days cases have
                remained open indicates that FSIS’ existing plan could be
                enhanced, if the agency sets goals and tracks the time it takes to
                process violation cases.

              FSIS also needs to remove systemic weaknesses in three other
              areas to improve the effectiveness of its investigations of consumer
              complaints and food safety violations.

              v FSIS does not have an effective system to provide reliable
                information regarding the number, status, and disposition of all
                consumer complaints received by their offices.     Other than
                consumer complaints received through the U.S. Department of
                Agriculture’s meat and poultry hotline, FSIS could not readily
                identify all consumer complaints that had been received
                nationwide.

              v FSIS’ enforcement actions taken against 197 (11 percent) of
                1,873 firms did not deter them from committing additional

Section IV, Page ii                                        USDA/OIG-A/24601-4-At
                violations. Several firms were cited as many as 4 times for the
                same violation within a 24-month period. Currently, FSIS does not
                have the authority to impose monetary fines for violations.
                Consequently, FSIS’ enforcement actions consisted of a letter of
                warning or similar letter for these cases. Several compliance
                officers we spoke with stated that the agency should have the
                authority to fine firms to deter further violations. We support FSIS’
                ongoing efforts to seek authority to impose monetary fines on
                firms that violate the meat and poultry inspection laws.

            v DEO determined that over half of the cases received from the
              districts did not require referral for prosecution. District offices
              refer standard cases to DEO headquarters for possible
              prosecution action by the U.S. attorney, through the Office of the
              General Counsel (OGC). We found that DEO headquarters
              determined 27 of the 41 cases (66 percent) referred from
              October 1, 1997, through February 28, 1999, did not require
              referral for prosecution. DEO officials stated that the cases did
              not have prosecutable merit or some assistant district managers
              for enforcement (ADME) and supervisory compliance officers did
              not have enough training or supervisory experience to properly
              prepare and submit violation cases. As a result, enforcement
              actions against these violators were delayed.

            During our audit fieldwork, we also detected a potential conflict of
            interest between a compliance officer and a firm that he was
            responsible for conducting compliance reviews. FSIS took immediate
            action and reassigned the compliance officer to other duties. The
            issue is currently under investigation.

                                       We recommend that FSIS further refine
    KEY RECOMMENDATIONS                its plan to incorporate prescribed
                                       procedures for conducting compliance
                                       reviews at 13 of the 14 types of firms it is
          required to oversee (FSIS currently has review steps only for
          warehouses). FSIS’ plan should also define the universe of high-risk
          firms requiring review and determine the review steps to be
          performed at each type of firm. FSIS’ plan needs to emphasize the
          targeting of resources to those areas that are geographically large
          and heavily populated, as well as to firms that are considered high
          risk. FSIS’ plan could be further enhanced by establishing timeframes
          and procedures for monitoring and tracking the progress and
          completion of violation cases. FSIS should ensure that all ADME's
          and supervisory compliance officers receive training to adequately
          prepare and submit violation cases for prosecution.

USDA/OIG-A/24601-4-At                                            Section IV, Page iii
             We recommend that FSIS develop an effective system to monitor the
             receipt and processing of all consumer complaints. We are also
             recommending that FSIS continue to seek authority to fine firms that
             violate the meat and poultry inspection laws.

                                        In its response to the draft report, dated
        AGENCY RESPONSE                 June 6, 2000, FSIS stated that for the
                                        past several years, it has placed strong
                                        emphasis on developing and applying
           appropriate enforcement support for the HACCP system and
           pathogen reduction regulations * * *.             Nevertheless, FSIS
           acknowledged that this additional emphasis has required it to delay
           certain needed improvements in traditional compliance activities.
           FSIS stated that the report comes at an excellent time as it considers
           ways to strengthen its coverage of distribution channels and to assure
           timely and appropriate actions in response to violations that put
           consumers at risk. FSIS also stated that implementation will be
           contingent on available resources.

             FSIS' response to the official draft report is included as exhibit I of the
             audit report.

                                           We agree with FSIS’ response to the
           OIG POSITION                    report. Based on FSIS’ response, we
                                           achieved management decision on five of
                                           the report’s eight recommendations.




Section IV, Page iv                                         USDA/OIG-A/24601-4-At
                                           TABLE OF CONTENTS


EXECUTIVE SUMMARY .......................................................................................... i
   RESULTS IN BRIEF............................................................................................. i
   KEY RECOMMENDATIONS............................................................................... iii
   AGENCY RESPONSE........................................................................................ iv
   OIG POSITION.................................................................................................. iv
INTRODUCTION .................................................................................................... 1
   BACKGROUND.................................................................................................. 1
   OBJECTIVES..................................................................................................... 4
   SCOPE .............................................................................................................. 5
   METHODOLOGY ............................................................................................... 7
FINDINGS AND RECOMMENDATIONS................................................................... 9
   CHAPTER 1 ....................................................................................................... 9
   EFFECTIVENESS OF PLANNED COMPLIANCE REVIEWS AND RANDOM
   REVIEWS COULD BE ENHANCED ..................................................................... 9
   FINDING NO. 1................................................................................................. 10
   RECOMMENDATION NO. 1.............................................................................. 16
   RECOMMENDATION NO. 2.............................................................................. 17
   FINDING NO. 2................................................................................................. 17
   RECOMMENDATION NO. 3.............................................................................. 22
   FINDING NO. 3................................................................................................. 23
   RECOMMENDATION NO. 4.............................................................................. 26
   CHAPTER 2 ..................................................................................................... 27
   FSIS DID NOT HAVE AN EFFECTIVE SYSTEM TO MONITOR CONSUMER
   COMPLAINTS.................................................................................................. 27
   FINDING NO. 4................................................................................................. 27




USDA/OIG-A/24601-4-At                                                                           Section IV, Page v
                                           TABLE OF CONTENTS



   RECOMMENDATION NO. 5.............................................................................. 30
   RECOMMENDATION NO. 6.............................................................................. 31
   CHAPTER 3 ..................................................................................................... 33
   FSIS’ ENFORCEMENT ACTIONS TO DETER REPEAT VIOLATORS
   OF MEAT AND POULTRY INSPECTION LAWS COULD BE IMPROVED
   BY USE OF CIVIL PENALTIES.......................................................................... 33
   FINDING NO. 5................................................................................................. 33
   RECOMMENDATION NO. 7.............................................................................. 41
   CHAPTER 4 ..................................................................................................... 43
   DEO DETERMINED THAT MOST CASES REFERRED BY DISTRICTS WERE
   NOT PROSECUTABLE..................................................................................... 43
   FINDING NO. 6................................................................................................. 43
   RECOMMENDATION NO. 8.............................................................................. 45
   EXHIBIT A – DISTRICT OFFICES VISITED/LIST OF OTHER FSIS OFFICES ...... 49
   EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED............................... 53
   EXHIBIT C – COMPLIANCE ACTIVITY REVIEWED FROM OCTOBER 1,
   1997 THROUGH FEBRUARY 28, 1999.............................................................. 56
   EXHIBIT D – TYPES OF FIRMS........................................................................ 57
   EXHIBIT E – PROCESSING TIMEFRAMES FOR CLOSED VIOLATION
   CASES............................................................................................................. 58
   EXHIBIT F – PROCESSING TIMEFRAMES FOR OPEN VIOLATION CASES
   AS OF SEPTEMBER 30, 1999 .......................................................................... 60
   EXHIBIT G – VIOLATIONS DISCLOSED DURING OIG VISITS........................... 63
   EXHIBIT H – VIOLATION CASES RECEIVED FROM DISTRICT OFFICES
   THAT WERE NOT REFERRED FOR PROSECUTION........................................ 65
   EXHIBIT I – FSIS RESPONSE TO DRAFT REPORT .......................................... 67
ABBREVIATIONS................................................................................................. 75




Section IV, Page vi                                                                   USDA/OIG-A/24601-4-At
                          INTRODUCTION

                                        The Food Safety and Inspection
        BACKGROUND                      Service’s (FSIS) mission is to ensure
                                        that the Nation’s commercial supply of
                                        meat, poultry, and egg products are safe,
          wholesome, and properly labeled and packaged as required by the
          Federal Meat Inspection Act (FMIA), the Poultry Products Inspection
          Act (PPIA), and the Egg Products Inspection Act. Throughout this
          report, we will refer to the cited Acts as meat and poultry inspection
          laws. FSIS’ District Enforcement Operations (DEO) plays a key role
          in carrying out this mission.

           The DEO compliance Investigative Protocols (formerly                  the
           compliance officer’s manual and training guidelines) states that

               DEO policies, procedures, and traditions date from May 1966,
               when meat law investigators and poultry regulatory officers
               were merged into one staff. The formation of a central
               compliance unit was stimulated after a series of scandals
               among non-federally inspected firms received widespread
               publicity. These scandals involved insanitary conditions in
               meat and poultry slaughter and processing facilities, and
               adulteration of meat and poultry products.           The U.S.
               Department of Agriculture (USDA) recognized the need for
               regular and continuing surveillance of the meat and poultry
               industry outside of federally inspected plants. The compliance
               and evaluation staff, as it was known then, was established to
               meet this need by extending regulatory functions carried out in
               inspected plants by food inspectors to compliance officers in
               the meat and poultry allied industries. Non-federally inspected
               firms, such as warehouses, processors, distributors,
               transporters, retailers, and other businesses that handled
               meat and poultry products for human consumption and/or
               animal food, became the working environment of the
               compliance officer.

           In 1995, FSIS restructured its headquarters and field operations to
           focus its resources on Hazard Analysis and Critical Control Point
           (HACCP) system verification tasks, and increase microbial sampling
           and oversight of the transportation, storage, and retail stages of the
           food system. In order to help ensure the successful implementation
           of HACCP, FSIS changed its field operations structure in 1997. This

USDA/OIG-A/24601-4-At                                         Section IV, Page 1
                 restructuring resulted in the formation of 18 district offices from
                 5 area offices in 1997 1. Also, FSIS had 179 compliance officers on
                 board at the time of our review. (See exhibit A for a listing of the
                 district offices and locations.) FSIS officials stated that the new FSIS
                 organization integrates inspection monitoring resources and
                 regulatory enforcement resources into a unified district structure and
                 assigns a new role to compliance officers. Specifically, FSIS uses
                 the training and expertise of compliance officers to assist in-plant
                 inspectors in documenting HACCP failures and to ensure
                 appropriate due process when enforcement actions are needed.

                 DEO, headquartered in Washington, D.C., plans and administers an
                 enforcement and compliance program, which is an integral part of
                 FSIS’ overall farm-to-table safety strategy. DEO’s organizational
                 function statement states that DEO “provides guidance and direction
                 to the 17 district offices relating to the monitoring of businesses
                 engaged in distribution of food products; manages and oversees
                 criminal investigations and case development; and takes appropriate
                 administrative, civil, and criminal sanctions on cases referred from
                 the field.” The district offices conduct compliance reviews to monitor
                 businesses engaged in production, and distribution of food products.
                 The district manager oversees the entire district operations;
                 however, the assistant district manager for enforcement (ADME)
                 directs all compliance reviews.

                 According to DEO’s compliance Investigative Protocols, DEO,
                 through its headquarters, district, and field offices, uses five major
                 approaches to carry out the compliance function. DEO:

                 v Conducts Planned Compliance Program (PCP) reviews to
                   prevent and detect violations in the distribution chain of meat and
                   poultry products.

                 v Conducts random examination of products at various stages of
                   the distribution chain.

                 v Documents meat and poultry inspection law violations and
                   recommends criminal, civil, and administrative sanctions.

                 v Establishes cooperative programs with other Federal, State, and
                   local authorities for product control throughout the distribution
                   chain, and


1
   FSIS currently has 17 district offices due to the July 1999 closure of the Boston, Massachusetts, district
office.

Section IV, Page 2                                                          USDA/OIG-A/24601-4-At
                v Identifies program deficiencies that could result in the distribution
                  of adulterated or misbranded products.

                DEO’s compliance Investigative Protocols state that “either a
                standard (significance 1) or streamline (significance 2 or 3) case can
                be developed against firms that may be in violation of the meat and
                poultry inspection laws. A significance 1 case requires very detailed,
                highly structured formal reports of violations that indicate critical
                impact involving likely harm to consumers, either physical or
                financial. Examples may include (1) gross negligence in handling,
                storage or distribution of meat and poultry products that cause
                contamination or rodent infestation, (2) adulterated product found in
                human       food    channels,    (3)    species      misrepresentation,
                (4) misbranding that would likely bring substantial monetary gain,
                (5) violator(s) engaged in criminal conspiracy, scheme or evasion,
                (6) record of past violations by the firm or principle officer(s)
                suggesting the need for legal action, (7) sale of meat or poultry from
                animals slaughtered without inspections, (8) retail sale of meat or
                poultry in excess of the firm’s dollar limitation, 2 and (9) violations
                involving HACCP failures.”

                “Significance 2 cases are those that indicate a definite violation of
                the meat and poultry inspection laws, but no serious threat to the
                consumer. These are violations where it is unlikely that the product
                would be harmful and there is no serious economic fraud. These
                cases are generally closed with a letter of warning. Examples might
                include (1) transactions involving either non-federally inspected or
                improperly labeled product, (2) small amount of product involved,
                and (3) improper handling of inedible product resulting in opportunity
                for diversion into human food channels.”

                “Significance 3 cases are minor impact cases involving no obvious
                threat to the consumer and only a minor or technical violation of
                meat and poultry inspection laws. In most cases, placing the firm in
                the PCP is sufficient for a first-time occurrence. Examples might
                include (1) reuse of meat or poultry containers bearing the official
                marks of inspection, when there seems to be no intent to
                misrepresent meat or poultry product as inspected and passed,
                (2) inedible meat and poultry product improperly labeled or
                inadequately denatured found in non-human food channels, and
                (3) incidents involving products not consumed by most Americans
                and not apt to be diverted into processed human food products.”

2
  In order to remain exempt from Federal inspection, a retail stores’ annual amount of meat and poultry
product sales to non-household consumers must not exceed a dollar limit established by the FSIS
administrator.

USDA/OIG-A/24601-4-At                                                          Section IV, Page 3
             Detected violations of the meat and poultry inspection laws can
             result in detentions, seizures, letters of warning, letters of
             information, criminal or civil prosecutions, and injunctions.      If
             evidence is found that, an individual or business has engaged in
             violations of the meat and poultry inspection laws, FSIS through the
             Office of the General Counsel (OGC) and/or OIG can refer the case
             to the appropriate U.S. attorney to pursue criminal or civil
             prosecution, seizures, and injunctions.

             From January 1, 1998, through December 31, 1999, FSIS’ quarterly
             compliance activity reports show that the agency detained over
             37 million pounds of meat and poultry products from 1,748 incidents
             of noncompliance with meat and poultry inspection laws. FSIS’ data
             shows that 27.5 million pounds (68 percent) of meat and poultry
             products were related to 731 incidents at 5 district offices. In
             addition, FSIS issued 4,693 letters of warnings, obtained 64 criminal
             actions, had 2 injunctions (currently 29 firms are under injunctions),
             and obtained 4 seizures for violations of the meat and poultry
             inspection laws.

             FSIS also maintains the USDA meat and poultry hotline to which
             consumers may report their concerns regarding meat and poultry
             products. These concerns can involve the unwholesomeness of
             products, or the discovery of product tampering. FSIS’ Office of
             Public Health and Science (OPHS), reviews consumer complaints
             regarding health and safety matters received through the USDA
             meat and poultry hotline and refers specific complaints to DEO for
             their review. Also, specific consumer complaints received through
             OIG’s fraud hotline are referred to DEO. In addition, consumer
             complaints concerning meat and poultry products are received and
             reviewed by the district offices.

             FSIS has a memorandum of agreement with OIG-Investigations.
             This agreement requires FSIS to refer cases meeting specific criteria
             to OIG-Investigations for their investigative determination.

                                       The objective of the audit was to
          OBJECTIVES                   determine whether FSIS’ policies,
                                       procedures, and controls were adequate
                                       to provide an effective compliance
           review program overseeing non-federally inspected firms for the
           purpose of detecting and preventing food safety violations and
           ensuring industry compliance with the provisions of meat and poultry
           inspection laws and regulations.



Section IV, Page 4                                       USDA/OIG-A/24601-4-At
                                       The fieldwork was performed at DEO
            SCOPE                      headquarters in Washington, D.C., at
                                       five judgmentally selected district offices
                                       (Alameda, California; Albany, New York;
           Atlanta, Georgia; Jackson, Mississippi; and Pickerington, Ohio) and
           at five judgmentally selected field offices, one in each of the five
           selected districts (Diamond Bar, California; Jamaica, New York;
           Fort Lauderdale, Florida; Knoxville, Tennessee; and Lexington,
           Kentucky). (See exhibit A.)

           We selected the Alameda, Albany, and Atlanta district offices and the
           Diamond Bar, Jamaica, and Fort Lauderdale field offices based on
           the high level of compliance activities during fiscal year (FY) 1998.
           The Jackson and Pickerington district offices and Knoxville and
           Lexington field offices were selected based on the low level of
           compliance activities and possible staffing-level problems.

           We also visited 90 firms (retailers, custom slaughter facilities,
           warehouses, distributors, etc.) that handle meat and poultry products
           in the 5 selected districts. Fifty-five of the 90 firms were in the PCP.
           These firms were selected because of prior violation(s), repeat
           violations, or the nature of their business.             The remaining
           35 firms were randomly selected and visited. (See exhibit B.)

           The initial fieldwork began in July 1998. In March 1999, the scope of
           the audit was increased from three district offices to five district
           offices. Also, we increased our review and analysis of agency data
           from 2 months to about 2 years. The fieldwork was completed in
           December 1999, and covered compliance activities from October 1,
           1997, through February 28, 1999. We extended our review period
           through September 30, 1999, to review enforcement actions
           pertaining to repeat violators of the meat and poultry inspection laws
           and processing timeframes for standard cases.

           The audit was performed in accordance with generally accepted
           government auditing standards. The auditors examined, on a
           judgmental sample basis, evidence supporting FSIS’ compliance
           activities. (See exhibit C.)

           We assessed (1) the adequacy of action taken in conducting,
           documenting, and resolving standard and streamline cases,
           performing PCP and random reviews, and investigating consumer
           complaints and (2) the maintenance and reliability of recordkeeping
           systems for violation cases and consumer complaints.



USDA/OIG-A/24601-4-At                                          Section IV, Page 5
             v We judgmentally selected 111 of 656 standard and streamline
               cases for review at the 5 district offices visited. We primarily
               selected violations cases for firms that were repeat violators.

             v We also selected 41 of 102 standard cases at DEO headquarters
               that were referred from district offices for further action. The
               41 violation cases were closed or referred to OGC for possible
               prosecution actions as of February 28, 1999.

             v For our analysis of processing timeframes for violation cases, we
               reviewed all 116 standard cases (35 closed and 81 open) at DEO
               headquarters that were referred from district offices for possible
               prosecution action as of September 30, 1999. We relied on
               violation case information obtained from DEO’s headquarters
               database.     However, a cursory review of this information
               disclosed instances of conflicting data or missing dates. We
               obtained missing data from the case files in those instances.

             v We judgmentally selected 5 compliance officers from each district
               office visited (25 in total) and reviewed the 2,085 random reviews
               they conducted over a 6-month period. Selection was based on
               the number of random reviews conducted. At each district, we
               selected some compliance officers who conducted a high number
               of random reviews and some compliance officers who conducted
               a low number of reviews.

             v We also judgmentally selected and reviewed the status of
               57 firms that were on the PCP for the 5 district offices. Our
               selection process placed emphasis on firms with a history of prior
               violations or firms, which, based on the nature of their business
               operations, may lead to violations, such as custom slaughter
               facilities.

             v We identified 858 consumer complaints received by the 5 district
               offices we visited. We did not identify the total number of
               consumer complaints because the five district offices lacked a
               system to document the initial receipt of complaints. We also
               assessed whether all 74 consumer complaints referred by OPHS
               to DEO were assigned to compliance officers and reviewed, as
               appropriate.

             See exhibit C for FSIS’ compliance activity from October 1, 1997,
             through February 28, 1998.




Section IV, Page 6                                      USDA/OIG-A/24601-4-At
                                      To accomplish our audit objectives, we:
       METHODOLOGY

           v Reviewed meat and poultry inspection laws, regulations, policies,
             and procedures;

           v Analyzed the process and supporting documentation for violation
             case reviews, PCP, random reviews, and consumer complaints;

           v Analyzed FSIS’ tracking systems for violation cases and
             consumer complaints;

           v Interviewed FSIS and OGC officials;

           v Obtained and reviewed information regarding DEO’s
             organizational structure, including training and experience of
             compliance staff;

           v Joined compliance officers on their compliance reviews of non-
             federally inspected firms; and

           v Observed and photographed potential violations committed by
             non-federally inspected firms while accompanying compliance
             officers on their compliance reviews.




USDA/OIG-A/24601-4-At                                       Section IV, Page 7
Section IV, Page 8   USDA/OIG-A/24601-4-At
         FINDINGS AND RECOMMENDATIONS

                 EFFECTIVENESS OF PLANNED COMPLIANCE
 CHAPTER 1       REVIEWS AND RANDOM REVIEWS COULD BE
                 ENHANCED

           FSIS’ compliance activities could be enhanced with refinements to
           the existing plan. DEO’s compliance Investigative Protocols, which
           serve as the agency’s plan for conducting compliance reviews and
           preparing violation cases, do not include all the key elements of an
           effective and systematic approach. Of the 14 types of firms FSIS
           has identified as subject to its compliance oversight (see exhibit D),
           FSIS has review steps for only 1—warehouses. Also, compliance
           officers:

           v were not aware of the number of high-risk firms subject to review,

           v did not adequately document compliance reviews and identify the
             scope of work performed,

           v did not follow the same processes at each firm visited, did not
             document minor violations, and in many instances did not
             indicate they reviewed any processes at all,

           v did not plan reviews taking into account the population or
             geographic size of the areas needing review or the risk posed by
             the types of operations in the areas, and

           v did not have timeframes and procedures for monitoring violation
             cases.

           We concluded that FSIS’ plan should identify the number of high-risk
           firms within each district’s jurisdiction, define the scope of
           compliance reviews (what areas to inspect, what record reviews to
           perform, etc.), and establish timeframes and procedures for violation
           cases. The plan should also emphasize the targeting of compliance
           resources to heavily populated areas, those areas that are
           geographically large, and those firms that historically have been
           shown to pose a high-risk to consumer health and safety.



USDA/OIG-A/24601-4-At                                         Section IV, Page 9
                                           FSIS has not identified all high risk firms
       FINDING NO. 1                       within each FSIS district's jurisdiction
                                           that may be subject to a compliance
                                           review, or defined the scope of the
 DEO NEEDS TO IDENTIFY ALL
                                           review to be performed at each type of
 HIGH RISK FIRMS AND BETTER
                                           firm (what areas to inspect, record
   DEFINE THE SCOPE OF ITS
                                           reviews to perform, etc.). No instructions
           REVIEWS
                                           require compliance officers to identify all
                                           firms or provide systematic review
                                           coverage of firms selected for review.
          Several DEO officials stated that more defined instructions would
          restrict their flexibility for conducting these reviews. However, under
          existing review plans, compliance officers risk letting some firms go
          uninspected while providing inadequate coverage of some firms
          visited.

             FSIS conducts both planned compliance program (PCP) reviews, as
             well as random reviews of firms to detect and prevent violations of
             meat and poultry inspection laws. PCP reviews are planned reviews
             conducted of firms that previously violated meat and poultry
             inspection laws, or lend themselves to possible violations. Random
             reviews are generally carried out through unannounced visits to
             firms. A typical compliance review may include, but is not limited to,
             review coverage of areas such as product inventory, product
             handling, pest management, housekeeping, and record retention.
             FSIS has identified 14 types of firms that process or handle meat
             and poultry products for which it has compliance oversight
             responsibility. (See exhibit D.)

             In reviewing the universe of firms subject to FSIS compliance
             reviews, we determined that districts were not aware of all firms
             within their jurisdictions. FSIS Directive 8100.1, Rev. 1, dated April
             2, 1993, provides that the purpose of the PCP review is to obtain and
             maintain current data on handlers of meat and poultry products.
             However, compliance officers for the five districts reviewed were not
             aware of the number of high-risk firms in their districts that were
             subject to compliance reviews. Consequently, it is possible that not
             all high-risk firms are being reviewed. (Our review also determined
             that not all high-risk firms known to FSIS were being reviewed. See
             Finding No. 2).

             State and local agencies (such as business licensing offices) could
             serve as reliable sources to obtain universe information regarding
             firms that handle meat and poultry products.

Section IV, Page 10                                        USDA/OIG-A/24601-4-At
           We reviewed 2,085 random reviews and 57 PCP reviews performed
           by compliance officers in 5 district offices, and we joined compliance
           officers on 55 PCP reviews and 35 random reviews of meat and
           poultry firms. For the compliance reviews already performed,
           supporting documentation was insufficient and did not identify the
           scope of the reviews. We also noted some inconsistencies in the
           coverage provided by the compliance officers we joined on the
           compliance reviews.

           During our review, we found the following.

           a. Review Steps Were Not Documented

              FSIS has not implemented operating procedures to establish
              documentation requirements for random reviews. Compliance
              officers typically documented their random reviews by notating
              “NNC” on their daily activity reports, which signified “no
              noncompliance” if no violation was identified. If a violation was
              identified, the compliance officer documented a brief description
              of the violation(s). However, from this documentation, we were
              unable to determine the scope and methodology used to conduct
              the reviews. For example:

              In the Pickerington, Ohio, district office, we found that compliance
              officers often documented only the name of the firm and a contact
              person to serve as the record of the random review if no
              deficiency was identified. One compliance officer we reviewed
              performed a total of 219 random reviews during the period of
              September 1, 1998, through February 28, 1999. The compliance
              officer documented only “NNC” and the name of the firm and the
              contact person for 181 of the 219 random reviews he conducted
              which had no deficiencies.

              In the Albany, New York, field office, we reviewed 1,022 random
              reviews conducted by two compliance officers from September 1,
              1998, through February 28, 1999. We were unable to identify the
              review steps performed by the two compliance officers, including
              meat and/or poultry inventory observations and record reviews.
              The compliance officers did not document whether assessments
              of controls relative to product storage and handling, pest
              management, and housekeeping were made.                  Without
              documentation of the reviews, there was no record that key
              components of the reviews were performed.



USDA/OIG-A/24601-4-At                                        Section IV, Page 11
                Of the 57 PCP’s we reviewed, the majority of firms had at least
                one previous violation. Although the PCP reviews generally
                contained more documentation than the random reviews, the
                compliance officers seemed to focus only on the issue(s) relative
                to the previous violation(s) committed by the firms.
                Consequently, we could not determine the extent of the reviews,
                even when violations were identified.

                DEO’s compliance Investigative Protocols for random reviews
                need improvement by requiring compliance officers to perform
                specific review steps at firms. Although a detailed report may not
                be necessary when no violations are identified, the use of a
                checklist to document that sufficient review steps are performed,
                along with a compliance officer certification, would better assure
                that an adequate review was conducted.

            b. Inconsistencies In Review Coverage

                Scope of compliance reviews needs to be better defined.
                Compliance officers did not always review the same processes at
                similar firms, did not document streamline cases for minor
                violations and in many cases, did not indicate that they reviewed
                any processes at all. Although FSIS does have review steps for
                conducting compliance reviews of warehouses, it has not
                developed similar review steps for the other 13 types of firms
                subject to review.

                We noted some inconsistencies in review coverage by several
                compliance officers we joined on the 55 PCP reviews and the
                35 random reviews.

                The following table summarizes the number of visits made in
                each of the five field offices visited.

           Table 1: Number of Compliance Reviews Attended by OIG

                 District               Field         Number of        Number of
                  Office               Office        PCP reviews     Random Reviews
            Alameda, CA        Diamond Bar, CA                  11                 6
            Albany, NY         Jamaica, NY                      14                 5
            Atlanta, GA        Fort Lauderdale, FL              10                 7
            Jackson, MS        Knoxville, TN                     9                 8
            Pickerington, OH   Lexington, KY                    11                 9
                                                                55                35

                For example, during our visits to meat and poultry firms in the
                Fort Lauderdale, Florida, area, the compliance officer examined

Section IV, Page 12                                       USDA/OIG-A/24601-4-At
              (1) storage areas (e.g., coolers/freezers, shelves), (2) processing
              areas, and (3) records for meat and poultry products at each firm.

              However, during our visits to two firms located in the Lexington,
              Kentucky, area, the compliance officer did not examine meat and
              poultry products stored in the coolers/freezers. Both firms were
              in the PCP due to previous violations for preparing and selling
              non-federally inspected meat products. During a subsequent visit
              to one of the firms, the compliance officer noted that the firm was
              preparing and selling a meat-based chili that had not been
              inspected. Because of these previous violations, we concluded
              that the compliance officer should have at least examined the
              products in the coolers/freezers. The two compliance officers
              had comparable years of experience.

              Also, during our visits we found that compliance officers did not
              follow FSIS’ policy to document streamline cases for minor
              violations of the meat and poultry inspection laws. For example,
              on June 30, 1999, we joined a compliance officer from the
              Diamond Bar, California, field office on a compliance review of a
              food distributor. The compliance officer found four packages of
              unlabeled meat products in a storage cooler. The products were
              stored with other meat products that were being offered for sale.
              The owner stated that the unlabeled products were not for sale
              and he intended to return them to the supplier. The owner then
              voluntarily destroyed the four packages of unlabeled meat
              products in our presence. However, the compliance officer did
              not document a streamline case for this violation. DEO’s
              compliance Investigative Protocols stipulate that a streamline
              case (significance 2) should be documented for transactions
              involving either non-federally inspected or improperly labeled
              products. FSIS previously issued a LOW to this firm on March
              11, 1999, for reuse of containers bearing the official marks of
              meat and poultry inspection, without removing or defacing the
              marks in question.

              FSIS officials stated that the compliance officer handled this
              situation in accordance with its policy because the compliance
              officer did not find evidence that adulterated or misbranded
              product was prepared, transported, or offered for sale. However,
              we concluded that the compliance officer should have
              documented a streamline case because of this firm’s history of
              violations and the fact that unlabeled product was stored among
              other products being offered for sale.



USDA/OIG-A/24601-4-At                                       Section IV, Page 13
                In addition, the compliance officer recommended that the firm
                remain in risk category 2. Risk category 2 criteria includes
                (1) violation(s) of the meat and poultry inspection laws by the firm
                within the past 12 months, (2) indications that the firm has placed
                unsound meat, meat food products, poultry, or poultry products
                into human food channels within the past 12 months, or (3) past
                operations of the firm demonstrate that they constitute a constant
                or intermittent risk in regard to 1 and 2 above.

                We joined another compliance officer assigned to the same field
                office on a compliance review of a processor/retailer on June 29,
                1999. The compliance officer observed 29 pounds of beef
                products that were dark in color and had evidence of slime. The
                meat products were located in a cooler/freezer along with other
                meat products that the firm was planning to process. The owner,
                in the presence of the compliance officer and OIG auditors,
                voluntarily denatured the products. However, the compliance
                officer did not document a streamline case for this violation.
                DEO’s compliance Investigative Protocols stipulate that a
                streamline case (significance 2) should be documented for
                improper handling of inedible product resulting in opportunity for
                diversion into human food channels.

                FSIS officials stated that the product was not in the retail display
                area and no evidence of preparation, transportation, or sale of the
                product was found. Also, FSIS officials stated that the product
                was properly controlled and the compliance officer notified the
                county health department that had primary jurisdiction over
                sanitation and product handling for this retail exempt firm. We
                concluded that a streamline case should have been documented
                for this violation because the firm could have processed the meat
                for its retail business if the compliance officer had not disclosed
                the violation. Also, the county health department was contacted
                regarding the poor sanitation problems, not the improper handling
                of the 29 pounds of inedible meat product.

                In another example, we joined a compliance officer assigned to
                the Lexington field office on a PCP review of a meat and poultry
                distributor on June 24, 1999. At this firm, we observed the reuse
                of boxes (re-boxing broken bulk) bearing the official marks of
                inspection for shipment of meat and poultry products to retail
                stores. This was a violation of meat and poultry inspection laws.
                The compliance officer discussed the defacement of the empty
                boxes with the firm’s management. However, the compliance
                officer recommended that the firm be placed on inactive PCP

Section IV, Page 14                                       USDA/OIG-A/24601-4-At
              status (this would cease reviews) even though an official of the
              firm admitted to the violation.

              FSIS officials stated that the compliance officer handled this
              situation correctly and in accordance with its policy. However,
              two different compliance officers from the same district developed
              two streamline cases on two separate occasions against another
              firm for reusing shipping boxes that bore the official marks of
              inspection. FSIS officials also stated that the compliance officer
              did not observe used boxes bearing the inspection legend being
              used to pack un-inspected meat products.

              According to 9 Code of Federal Regulations, Chapter III, Part
              317.10, paragraph (a) states that no official inspection legend or
              other official mark which has been previously used shall be used
              again for the identification of any product, except as provided for
              in paragraph (b) of this section. Paragraph (b) states that all
              stencils, marks, labels, or other labeling on previously used
              containers, whether relating to any product or otherwise, shall be
              removed or obliterated before such containers are used for any
              product, unless such labeling correctly indicates the product to be
              packed therein and such containers are refilled under the
              supervision of a program employee. This regulation is applicable
              to inspected products.

              According to DEO’s compliance Investigative Protocols for
              significance 3 cases a streamline case should have been
              documented for the “reuse of meat or poultry containers bearing
              the official mark of inspection, when there seems to be no intent
              to misrepresent meat or poultry products as inspected and
              passed.” In addition, an ADME from another district office
              advised us that it would be improper for a firm to reuse boxes
              without defacing the official marks of inspection even if the meat
              or poultry product was federally inspected. We concluded that
              this firm should have been cited for the violation.

              We also found that several compliance officers made
              questionable determinations regarding what constitutes a random
              review. For example, we joined a Fort Lauderdale, Florida,
              based compliance officer on a compliance review of a laundry
              equipment business. The compliance officer counted this visit on
              his daily activity report as a random review. FSIS officials stated
              that the compliance officer was following up on a firm that had a
              history of non-compliance due to activity observed at the address.
              FSIS officials also stated that this type of visit is within their broad

USDA/OIG-A/24601-4-At                                           Section IV, Page 15
                definition of a random review. We concluded that this visit should
                not had been counted as a random review for the following
                reasons (1) the compliance officer did not perform a review, he
                only conversed with the owner and (2) the firm did not handle
                meat or poultry products (the compliance officer noted on his
                daily activity report that this location was formerly occupied by a
                firm that handled meat and poultry products).

            Further, in May 1999, our review of a compliance officer’s daily
            activity report from the Albany, New York, district revealed that he
            counted, as a random review, a visit to a retail firm (sandwich shop)
            even though the owner did not allow him to review the firm. FSIS
            officials advised that the compliance officer, who had been refused
            entry into the sandwich shop on September 4, 1998, took credit for
            the review in error.

            A DEO official stated that DEO’s compliance Investigative Protocols
            provide the necessary guidelines for the effective and consistent
            execution of prescribed enforcement activities. We found that DEO’s
            compliance Investigative Protocols describe how to document
            internal FSIS forms upon conducting a compliance review, but they
            do not provide sufficient instruction for compliance officers to identify
            all high-risk firms in their jurisdictions or what storage and product
            areas to examine, which records to review, etc.

            We concluded that FSIS should enhance its existing plan by
            improving its systematic approach to its compliance reviews. The
            plan should be enhanced to (1) define the universe (number) of high-
            risk firms subject to compliance reviews in each district and
            (2) standardize the scope of reviews to identify what should be
            reviewed, record reviews to perform, etc.

                                         Enhance FSIS’ existing plan by
  RECOMMENDATION NO. 1                   improving the process to identify and
                                         review high-risk firms that handle meat
                                         and poultry products.

            FSIS Response

            FSIS agrees with the recommendation to enhance its existing plan
            by improving the process to identify and review high-risk firms. FSIS
            stated that it would proceed with these enhancements to its plan and
            prioritize its efforts consistent with available resources. A revised
            plan will be completed by October 2000.



Section IV, Page 16                                       USDA/OIG-A/24601-4-At
            OIG Position

            We accept FSIS’ management decision for this recommendation.

                                   Enhance and refine FSIS’ existing plan
  RECOMMENDATION NO. 2             by incorporating prescribed review steps
                                   for conducting compliance reviews for
                                   each of the 14 types of firms the agency
        oversees (FSIS has review steps for warehouses). The plan should
        also include a review checklist along with a compliance officer’s
        certification statement that the appropriate review steps were
        performed.

            FSIS Response

            FSIS agrees with the recommendation to work towards standardizing
            the scope of compliance reviews while preserving adequate flexibility
            to allow compliance officers to utilize their professional judgment and
            technical expertise to act on issues that are unusual or unique. FSIS
            stated that it will develop better methods to standardize compliance
            reviews, such as enhancing its Investigative Protocols by including
            detail descriptions of critical areas to review for high-risk business
            types. FSIS also stated that it will establish a review policy to assure
            that personnel follows all critical procedures. FSIS further stated that
            this process will be completed by December 2002.

            OIG Position

            We agree with FSIS' proposed action.              However, to reach
            management decision, FSIS needs to amend its December 2002
            completion date to comply with Departmental Regulation (DR) 1720-
            1, which requires final action within 1 year of management decision.

                                       DEO does not target its resources to
      FINDING NO. 2                    provide appropriate coverage of major
                                       metropolitan and geographical areas and
                                       high-risk firms. No procedures require
DEO NEEDS TO BETTER TARGET
                                       DEO to plan its reviews according to
      ITS RESOURCES
                                       such a strategy, even though the recent
                                       restructuring of FSIS, which centralized
                                       many of its compliance officers away
         from locations that need greater coverage, requires targeting to
         ensure the appropriate reviews are performed. In the absence of
         targeted coverage, those areas and firms with a greater frequency of
         violations are receiving a lesser frequency of reviews. In the State of

USDA/OIG-A/24601-4-At                                          Section IV, Page 17
            New York, for example, violations were found during only 2 percent
            of the 1,167 random reviews performed upstate, while in New York
            City itself, violations were found during 25 percent of the 89 random
            reviews performed there.

            Once DEO establishes an accurate universe of high-risk firms (see
            Finding No. 1), it should emphasize that districts need to target their
            resources to ensure coverage is provided proportionately throughout
            major metropolitan and geographical areas, and that reviews of
            areas and firms are commensurate with the risks they have
            historically posed to consumers’ health and safety.

            FSIS officials stated that it needs additional funding and resources to
            fill critical vacancies in major metropolitan and geographical areas.
            FSIS officials advised that its employment ceiling for compliance
            officers is 179. However, based on a DEO assessment, they need
            245 compliance officers to fulfill their compliance function. FSIS
            officials also stated that it should continue to enhance its assessment
            of allocating and adjusting available staffing resources in response to
            changing levels of activity.

            FSIS officials estimate there are 1 million firms that handle meat and
            poultry products. In addition, FSIS officials advised that with the
            implementation of HACCP, the role of the compliance officer has
            expanded; specifically, to assist in-plant inspectors in documenting
            HACCP failures and to ensure appropriate due process when
            enforcement actions are needed. FSIS officials also advised that
            compliance officers are used to investigate foodborne illness
            outbreaks and to monitor judicial decrees and orders.

            a.   FSIS’ Compliance Review Coverage May Not Be Sufficient In
                 Certain Major Metropolitan and Geographical Areas

                 FSIS needs to assess its review coverage in certain major
                 metropolitan and geographical areas.            In 1997, FSIS
                 reorganized from 5 area offices to 18 district offices (there are
                 currently 17 district offices) nationwide. (See exhibit A.) FSIS
                 officials stated that the agency is now more geographically
                 flexible with the establishment of the district office structure.
                 However, we found that FSIS needs to assess its coverage in
                 certain major geographical areas.

                 For instance, the Pickerington, Ohio, district had seven
                 compliance officers and compliance oversight responsibility over
                 the States of Ohio, Kentucky, and West Virginia. However, the

Section IV, Page 18                                      USDA/OIG-A/24601-4-At
              Pickerington district had compliance officers based in Ohio and
              Kentucky, but not in West Virginia. As a result, West Virginia
              received the least compliance review coverage. Compliance
              officers performed 587 random reviews between September 1,
              1998, and February 28, 1999, of which 486 reviews were in Ohio
              and 87 reviews were in Kentucky. However, only 14 random
              reviews were performed in West Virginia within this same
              6-month period. Ten of the 14 random reviews occurred over a
              2-day span, September 29 and 30, 1998.

              We also found that only nine firms in West Virginia were
              undergoing PCP reviews. (Ohio had 134 firms and Kentucky
              had 36 undergoing PCP reviews.) During 1998, West Virginia
              had a reported foodborne illness at an elementary school. The
              ADME acknowledged that there was a need for better
              compliance coverage in West Virginia.             He stated that
              compliance officers go there only for mission-critical purposes.

              Also, a compliance officer from the Pickerington, Ohio, field
              office stated that it takes 6 hours to commute one way to some
              parts of West Virginia. The 6-hour commute may be significant
              because it could require overnight lodging. ADME’s from the five
              district offices all expressed concerns regarding the availability of
              travel funds for compliance activities.

              Likewise, the Jackson, Mississippi, district, which had six
              compliance officers and compliance oversight responsibility over
              the States of Mississippi, Tennessee, and Alabama, provided
              minimal compliance coverage in the Memphis, Tennessee, area
              (the heaviest populated city in the district).        The nearest
              compliance officer to Memphis was located approximately
              3 hours away in Nashville, Tennessee. There were no random
              reviews performed in Memphis between September 1, 1998, and
              February 28, 1999. The area compliance case report showed
              only one violation case in Memphis. The violation case had a
              case date of April 1997, which was prior to the reorganization
              from the area offices to district offices. Also, at the time of our
              review, there was only one compliance officer responsible for
              covering the entire State of Mississippi. Only two compliance
              officers were responsible for the entire State of Alabama. The
              three compliance officers combined conducted only 35 random
              reviews between September 1, 1998, and February 28, 1999.

              The Atlanta, Georgia, district had 17 compliance officers and
              compliance oversight responsibility over the States of Georgia

USDA/OIG-A/24601-4-At                                        Section IV, Page 19
                and Florida, the Commonwealth of Puerto Rico, and the
                Virgin Islands. We found that the three compliance officers were
                primarily responsible for reviewing north and central Georgia,
                including metropolitan Atlanta, performed only three random
                reviews between September 1, 1998, and February 28, 1999.
                Forty-two violation cases were identified in Georgia between
                October 1, 1997, and September 30, 1999. Twenty-two of those
                (52 percent), occurred in metropolitan Atlanta.

                In addition, we found that the two compliance officers in the
                Tallahassee, Florida, field office, who are responsible for
                northern Florida and South Georgia, performed only two random
                reviews in South Georgia between September 1, 1998, and
                February 28, 1999. Also, the two compliance officers did not
                perform any random reviews in Valdosta, Georgia; Panama City,
                Florida; and Pensacola, Florida during the same period.

            b. Review Coverage Needs To Be Targeted At High-Risk Areas

                We found that FSIS’ overall plan or strategy to target high-risk
                areas needs improvement. For example, the New York City area
                has a high concentration of custom exempt slaughtering
                facilities.

                Historic data shows that for the Albany, New York, district, the
                majority of the standard and streamline cases were disclosed in
                the New York City metropolitan area. In comparison, the Albany,
                New York, area had far fewer violations. However, compliance
                officers assigned to the Albany, New York, field office performed
                1,260 random reviews between September 1, 1998, and
                February 28, 1999, while compliance officers assigned to the
                New York City metropolitan area (Jamaica, New York and
                Bogota, New Jersey) performed only 162 random reviews.

                In addition, our analyses of compliance reviews conducted by
                five compliance officers assigned to the Albany, New York,
                district showed that three of the five compliance officers from the
                Albany, New York, field office performed 1,167 random reviews
                and identified violations at 20 firms (2-percent). In contrast, two
                compliance officers from the Jamaica, New York, field office
                performed 89 random reviews and identified violations at
                22 firms (25-percent). This data indicates that FSIS may have a
                greater need for compliance activity in the New York City
                metropolitan areas as opposed to the Albany, New York, area
                where violations appear to be less prevalent.

Section IV, Page 20                                      USDA/OIG-A/24601-4-At
                     c. Review Coverage Also Needs To Be Targeted To High-Risk
                        Firms

                          We found that FSIS may need to target their compliance reviews
                          at high-risk firms. We found that transporters, warehouses, and
                          processors could be considered as high-risk firms.          We
                                                         3
                          characterize a high-risk firm as one that (1) handles large
                          volumes of meat and poultry products that may be one or two
                          distribution levels from the household consumer and/or
                          (2) exposes large groups of consumers to meat and poultry
                          products when the consumers may have factors (age, health,
                          limited options, etc.) that make them more susceptible to
                          foodborne illness and/or injury.

                          We reviewed 2,085 random reviews in the 5 district offices
                          conducted by 25 compliance officers between September 1,
                          1998, and February 28, 1999. Fewer random reviews were
                          performed at transporters, warehouses, and processors. We
                          concluded that FSIS should assess the need for increased
                          coverage of these types of firms. The following table provides
                          the number of reviews performed at these types of firms.

               Table 2: FSIS’ Least Reviewed Firms
                                 NUMBER OF
                DISTRICT         COMPLIANCE
                OFFICE           REVIEWS              PROCESSORS          TRANSPORTERS          WAREHOUSES
                Alameda                    188                15                     3                   5
                Albany                   1,256                12                    34                  10
                Atlanta                     76                 2                     0                   3
                Jackson                    156                 6                     0                   3
                Pickerington               409                 8                     1                   3
                TOTAL                    2,085                43                    38                  24

                          We also found that firms such as schools, senior citizen and
                          childcare centers and homes, hospitals, correctional institutions,
                          and military bases may be considered as high-risk because of the
                          nature of their operations. These firms serve meat and poultry
                          products to large numbers of people on a daily basis. We found
                          that only a few of these types of firms were in the PCP. The table
                          on the following page shows the number of these types of firms
                          that had active status in the PCP at the time of our fieldwork.




3
    Our definition for high-risk firms was solely based on our observations during the audit.

USDA/OIG-A/24601-4-At                                                                   Section IV, Page 21
Table 3: FSIS’ Least Reviewed Firms that Serve Food Directly to Consumers
                   UNIVERSE                   CHILD/ADULT
                   OF PCP                     CARE CENTERS/                                      CORRECTIONAL              MILITARY
DISTRICT           FIRMS 1/           SCHOOLS HOMES                           HOSPITALS          INSTITUTIONS              BASES
Alameda                     496             2             0                           3                        1                   1
Albany                   1,072              3             9                          10                       12                   5
Atlanta                     510             2             0                           1                        7                  10
Jackson                     231             1             0                           4                        3                   5
Pickerington                179             0             0                           3                        3                   0
Total                    2,488              8             9                          21                       26                  21
1/
     This information was obtained during the audit fieldwork for the respective district offices between March 1999, and August 1999.


                          A review of violation cases and consumer complaints disclosed
                          that adulterated products had reached firms such as schools,
                          senior citizen and childcare centers and homes, correctional
                          institutions, and military bases. For example, a firm prepared and
                          sold more than 2 million pounds of adulterated and/or
                          unwholesome products that reached 34 states, including schools
                          located in Mississippi and West Virginia. The products caused
                          injury/illness to some consumers, and as a result, were recalled.
                          Another firm prepared and sold adulterated, off-condition (putrid),
                          and/or noncompliance products to a school district in Florida, a
                          correctional institution in Texas, and a military base in Puerto Rico.
                          More of these types of firms should be on the PCP because of the
                          large number of people they serve meat and poultry products on a
                          daily basis, along with the age factors and health concerns of the
                          elderly and children.

                    We concluded that FSIS needs to emphasize the targeting of reviews
                    to large metropolitan and geographical areas and firms that pose a
                    high-risk to consumer health and safety. We are recommending that
                    FSIS enhance their existing plan to emphasize these risks.

                                                             Enhance FSIS’ existing plan to
     RECOMMENDATION NO. 3                                    emphasize the targeting of resources to
                                                             large metropolitan and geographical
                                                             areas and to high-risk firms with a history
                    of violations.

                    FSIS Response

                    FSIS agrees that there is a need to improve systems for allocating
                    resources more effectively. FSIS stated that its improved system will
                    include factors such as geographical size, administrative workload,
                    level of State and local cooperation, population density, case
                    documentation, and complexity/density of federally-inspected
                    establishments. FSIS stated that successful implementation of this

Section IV, Page 22                                                                 USDA/OIG-A/24601-4-At
             system will assure that the most critical locations are adequately
             staffed. FSIS expects to complete this activity by December 2002.

             OIG Position

             We agree with FSIS’ proposed action.         However, to reach
             management decision, FSIS needs to amend its December 2002
             completion date to comply with DR 1720-1, which requires final
             action within 1 year of management decision.

                                       DEO’s         compliance       Investigative
       FINDING NO. 3                   Protocols   does  not have  timeframes  and
                                       procedures for monitoring and tracking
                                       the progress and completion of violation
   DEO NEEDS TO ESTABLISH
                                       cases at its headquarters, district, and
 TIMEFRAMES FOR PROCESSING
                                       field office levels. FSIS officials stated
        CASE REVIEWS
                                       that     prescribed    timeframes      could
                                       interfere with the quality of the
                                       processing;      consequently,     it    left
          timeliness of processing to the discretion of each level involved. We
          found that FSIS could enhance its existing plan with procedures for
          monitoring and tracking the timeframes for processing violation
          cases. In the absence of established timeframes, cases may
          encounter lengthy delays. In one 2-year-old case in which putrid
          meat was delivered to a child care center, a letter of warning to the
          meal caterer was drafted and forwarded to headquarters for review,
          but as of the date of our audit, it has not been issued.

             Each district office maintained a database for standard and
             streamline cases. The district offices forwarded these cases to DEO
             headquarters when their involvement was warranted (review of
             prosecution case, etc.). Headquarters maintains a database for
             cases forwarded to them by the district offices.

             Between October 1, 1997, and September 30, 1999, DEO
             headquarters’ “Evaluation and Enforcement Division Case Tracking
             System” showed 116 violation cases that were forwarded to them by
             the district offices for possible prosecution or other enforcement
             actions. DEO headquarters took the following enforcement actions
             on these cases (1) referrals for prosecution, (2) letters of warnings or
             similar letters, and (3) referral to the States for sanctions. For
             several cases, no action was taken.

             Of the 116 prosecution cases forwarded to DEO headquarters,
             35 were closed and 81 were still open as of September 30, 1999. To

USDA/OIG-A/24601-4-At                                           Section IV, Page 23
            process the 35 closed cases, headquarters and the district offices
            took an average of 249 days. The cases were closed with either a
            letter of warning or similar letter issued to the firm, referral to the
            appropriate State for administrative action, or no action at all. These
            cases remained in the districts an average of 121 days before being
            submitted to DEO headquarters, which took an average of an
            additional 127 days to complete the case reviews and take
            enforcement actions. (See exhibit E.)

            The remaining 81 cases that were still open, had been open an
            average of 395 days through September 30, 1999. These cases
            were in various stages of being reviewed by DEO headquarters staff.
            The cases had been in the districts an average of 182 days before
            being submitted to DEO headquarters, where they averaged
            213 days in open status. (See exhibit F.)

            FSIS officials stated that it would be inappropriate to prescribe
            timeframes for each phase since quality and completeness are
            dependent on adequate time. We found that the number of days
            these cases have remained open indicate that FSIS’ existing plan
            could be enhanced if they set goals and track the time it takes to
            process the cases. We identified two serious instances where
            inadequate monitoring resulted in lengthy delays in completing the
            cases.

            v On February 10,1998, the executive director of a childcare center
              in West Palm Beach, Florida, made a consumer complaint
              (referred to DEO through a USDA official from Washington, D.C.)
              that meals were received from a catering company to serve about
              71 children contained “off condition” (putrid) meat products. This
              catering company also had contracts to provide meals to four
              senior citizen centers. The same day the childcare center
              received the putrid meals, 50 individuals became ill after
              consuming meals provided by the same caterer at the 4 senior
              citizen centers.

                FSIS initiated a case review on February 13, 1998. A compliance
                officer observed putrid meat products received from the same
                catering company on a subsequent visit to the childcare center.
                Additionally, the Florida Department of Health was notified and
                reported that laboratory results were inconclusive and did not
                explain the outbreak, but it did say that the outbreak was
                consistent with Bacillus cereus food poisoning. In June 1998, the
                Atlanta, Georgia, district office drafted a letter of warning
                addressed to the firm. However, the letter was never issued.

Section IV, Page 24                                      USDA/OIG-A/24601-4-At
              According to FSIS officials, since the letter addresses alleged
              violations that pertain to a catering company which could qualify
              for an exemption e.g., as a retail store or restaurant under the
              FMIA, PPIA, and applicable regulations, it was sent to DEO for
              review. As of January 11, 2000, almost 2 years later, no action
              has been taken regarding this case.

              The lack of action is especially serious because the owners of the
              catering company also owned a federally inspected plant, an in-
              house catering facility, and five other satellite catering facilities.
              These satellite catering facilities had also contracted with the
              Florida Department of Health, Child Care Food Service Program,
              Meals on Wheels, and other government-sponsored feeding
              programs to provide meals.          An official from the catering
              company commented that they feed over 5,000 people per day at
              40 centers.

              FSIS officials advised that their investigation did not document a
              health or safety violation of USDA statues and the pathogen in
              question is not likely to be related to a FSIS source. Further,
              FSIS officials stated that their concern for the health and safety of
              consumers was brought to the attention of the catering company
              during the investigation and by telephone conversations with the
              Atlanta, Georgia, district office. In addition, FSIS stated that the
              Florida Department of Health’s April 16, 1998, report pertaining to
              the illnesses of the 50 individuals was provided to the catering
              company. Further, FSIS officials stated that their report did not
              support any enforcement action.

           v In another instance, a school district was the source of a
             complaint, referred to FSIS that reported a federally inspected
             plant delivered them “beef patties” that had a “strong, rancid odor,
             along with shrinkage, moisture, and fat.” The beef patties,
             approximately 31,000 pounds, were supposed to be of a single
             ingredient product, but were also found to contain other
             undeclared ingredients, such as chicken and soy. The product
             was returned to the plant between September and December
             1997. The plant extended credit memos to the school district as
             resolution for the incident.

              Approximately one year later, in November 1998, this same plant
              prepared, sold, and transported to the U.S. Department of Justice
              700 pounds of beef cubed steaks that were soured. We were
              told by the compliance officer that the 700 pounds of products
              were destroyed under his supervision. Less than 5 months later,

USDA/OIG-A/24601-4-At                                         Section IV, Page 25
                (in March 1999, under a U.S. Department of Defense contract)
                the plant filled a top sirloin butt steak order with beef round
                knuckle steak. A USDA Agricultural Marketing Service official
                reported that the beef knuckle steak commanded a significantly
                lower price in the market. As of January 11, 2000, FSIS was still
                processing this case. FSIS officials stated that the actions taken
                to date are monitoring product disposition and investigations as to
                why the product emitted a strong, rancid and sour odor or was
                misbranded.

            We concluded that FSIS needs to establish procedures to monitor
            and track the timeframes for processing and completion of violation
            cases.

                                    Define     effective  and     meaningful
  RECOMMENDATION NO. 4              timeframe guidelines for monitoring and
                                    tracking the progress and completion of
                                    violation cases. Establish procedures for
        tracking those timeframes such as investigative time, documentation
        time, supervisory review time, headquarters review time, etc.

            FSIS Response

            FSIS agrees that much benefit would be derived from monitoring and
            tracking process timeliness associated with the investigation and
            review of violation cases. FSIS is reviewing a database system to
            track the process timeliness of violation cases from predication to
            referral to the U.S. attorney. FSIS stated that its new system will be
            fully operational prior to FY 2001.

            OIG Position

            We accept FSIS’ management decision for this recommendation.




Section IV, Page 26                                      USDA/OIG-A/24601-4-At
                  FSIS DID NOT HAVE AN EFFECTIVE SYSTEM TO
CHAPTER 2
                  MONITOR CONSUMER COMPLAINTS

                                          FSIS did not have an effective system to
        FINDING NO. 4                     monitor consumer complaints. FSIS is
                                          responsible for reviewing consumer
                                          complaints received through the USDA
           meat and poultry hotline, the OIG fraud hotline, and directly to its
           headquarters, district, and field offices. However, DEO’s compliance
           Investigative Protocols for consumer complaints do not prescribe a
           method for monitoring. As a result, FSIS could not provide reliable
           information concerning the number, status, and disposition of all
           consumer complaints received by its offices. After an extensive
           record review, we identified 858 consumer complaints for the five
           district offices we visited. FSIS has no assurance that all consumer
           complaints were reviewed and appropriately resolved. Also, the
           5 district offices visited had no record of receipt or followup action on
           16 consumer complaints (22 percent of the 74 complaints) referred
           to them by OPHS that was received through the USDA meat and
           poultry hotline.

           Consumer complaints may involve the discovery of unwholesome
           meat and poultry products, or they may disclose incidents of product
           tampering.     DEO’s compliance Investigative Protocols provide
           guidance on where to forward specific types of consumer complaints
           for followup and completion of supporting documents, but they do not
           address monitoring by headquarters, district, or field offices. Further,
           these offices were not required to maintain a log or other record of
           consumer complaints received. Also, the district and field offices
           were not required to keep DEO headquarters or some designated
           centralized location informed of all consumer complaints received
           and the results of reviews conducted.

           Consumers may report their concerns regarding meat and poultry
           products in several ways (1) over the USDA meat and poultry
           hotline, (2) over the OIG fraud hotline, or (3) directly to DEO
           headquarters, districts, or field offices. Agencies such as the Food
           and Drug Administration and local health departments also are
           sources for reporting complaints that are forwarded to FSIS.

           For consumer complaints received through the USDA meat and
           poultry hotline, OPHS is responsible for forwarding certain
           complaints to DEO for review. Consumer complaints received
           through the USDA meat and poultry hotline involving foreign objects

USDA/OIG-A/24601-4-At                                          Section IV, Page 27
                should be referred to DEO. Consumer complaints involving product
                tampering should be referred to OIG for review.               Consumer
                complaints made directly to the OIG fraud hotline are reviewed by
                OIG-Investigations and either investigated (e.g., product tampering)
                or referred to FSIS for handling. District and field offices also initiate
                reviews of those consumer complaints made directly to them.

                DEO did not have an effective system in place to monitor consumer
                complaints received by district and field offices. With the exception
                of those consumer complaints referred to DEO by OPHS that came
                through the USDA meat and poultry hotline and those complaints
                referred by OIG received through the fraud hotline 4, DEO could not
                readily identify all consumer complaints received.            A DEO
                headquarters official informed us that consumer complaints received
                directly by his office are referred to the applicable district or field
                office for handling. However, headquarters did not maintain a
                system to record the initial receipt of consumer complaints and thus
                did not have the means to monitor all consumer complaints

                We encountered similar problems at the district and field offices
                visited. The district offices forwarded consumer complaints received
                to the applicable field offices for followup without documenting
                receipt of the complaint. None of the five district offices reviewed
                had a system to document the initial receipt of a consumer
                complaint or to track complaints once received. Although the
                Albany, New York; Jackson, Mississippi; and Pickerington, Ohio,
                district offices each maintained a log of consumer complaints
                received, their logs were not kept up to date. Consumer complaints
                were routinely documented after followup action by the field offices
                had been completed and submitted to the district. Also, entries for
                data fields on the logs--such as the date received, status, and
                disposition--were missing.

                In order to determine the number of consumer complaints received
                by the five district offices for the purpose of constructing a universe,
                we either relied on numbers provided by the offices, including the
                logs, or conducted a search of district offices’ files to locate and
                identify each case record (i.e., consumer complaint information
                sheet). According to the DEO’s compliance Investigative Protocols,
                the consumer complaint information sheet is completed following a
                visit to the consumer to discuss the complaint and to examine the
                product involved.


4
  FSIS’ OPHS provided us with a listing of USDA meat and poultry hotline complaints. OIG fraud hotline
complaints were provided by OIG–Investigations.

Section IV, Page 28                                                    USDA/OIG-A/24601-4-At
           The following table shows the number of consumer complaints that
           we identified as received by the five district offices during our audit
           period (October 1997-February 1999).

           Table 4: Number of Consumer Complaints for the Five District Offices
           Visited
                     DISTRICT OFFICE            NO. OF CONSUMER COMPLAINTS
            Alameda                                            204
            Albany                                             143
            Atlanta                                            236
            Jackson                                            132
            Pickerington                                       143
             Total                                             858

           We found that these numbers were not reliable because, although in
           many cases, they support complaints where there was a record of
           followup action, they do not support the initial receipt of all
           complaints, including instances where no followup action took place.

           Likewise, the five field offices reviewed did not have a formal system
           to document the initial receipt of a consumer complaint or a tracking
           mechanism. Compliance officers from the five field offices informed
           us that they were responsible for initiating followup on consumer
           complaints received directly by them, including those from DEO
           headquarters, but that they were not required to document receipt of
           the complaints or report the results of the followup action to the
           district offices for all complaints (e.g., unfounded complaint).

           DEO headquarters officials stated they did not need a tracking
           system because they assumed the field offices were tracking
           consumer complaints. The officials stated that they had been relying
           on “on-the-job training” instead of written guidelines or procedures to
           ensure that consumer complaints were properly received and
           reviewed. However, they conceded that written procedures might be
           appropriate to ensure the integrity of the resolution of consumer
           complaints. They noted that the reorganization contributed to
           procedures not being developed.

           In addition, we noted that OPHS referred 74 consumer complaints to
           DEO that were received through the USDA meat and poultry hotline
           from October 1, 1997, through February 28, 1999, for the 5 selected
           district offices. Our review disclosed that 4 of the 5 district offices
           had no record of receipt for 16 of the 74 (22 percent) consumer
           complaints, as shown on the table on the next page.



USDA/OIG-A/24601-4-At                                        Section IV, Page 29
            Table 5: Number of Consumer Complaints with No Record of Receipt
                                       NO. OF CONSUMER
                                     COMPLAINTS REFERRED         NO RECORD OF
                DISTRICT OFFICE             BY OPHS                 RECEIPT
             Alameda                           18                      3
             Albany                            11                      2
             Atlanta                           13                      5
             Jackson                            9                      0
             Pickerington                      23                      6
              TOTAL                            74                     16

            Consumer complaints were not followed up on because DEO did not
            have an effective system to document and monitor consumer
            complaints received by its offices. OPHS officials stated that once a
            complaint (foreign objects) is referred to DEO, all responsibility for
            the complaint is assumed by DEO.            There was no further
            involvement by OPHS to ensure that DEO received, reviewed, and
            appropriately resolved the complaints.

            Without a tracking system to monitor consumer complaints, FSIS is
            not able to readily provide the number or status of consumer
            complaints or ensure consumer complaints are investigated and,
            when warranted, conditions corrected.

            FSIS is currently piloting a consumer complaint database in its
            Philadelphia, Pennsylvania, district office. FSIS officials stated that
            the database will monitor receipt and follow up action on all
            consumer complaints received at both the headquarters and district
            levels. FSIS is also developing written procedures and guidelines for
            the consumer complaint system prior to its September 1, 2000,
            expected nationwide implementation date.

                                      Develop a system, including written
  RECOMMENDATION NO. 5                procedures, to monitor receipt and
                                      followup action on all consumer
                                      complaints        received at  DEO
        headquarters, district, and field office levels.

            Agency Response

            FSIS agrees with this recommendation that an improved system
            should be developed to monitor receipt and followup action on all
            consumer complaints. FSIS also agrees that written procedures are
            needed to monitor the receipt of, and followup action on consumer
            complaints. FSIS stated that it plans to centralize this function under
            one unit that will monitor receipt and disposition of consumer
            complaints. Until then, FSIS stated that it is implementing an interim

Section IV, Page 30                                      USDA/OIG-A/24601-4-At
           monitoring system for the receipt and follow up of consumer
           complaints from district field staff or those referred to DEO
           headquarters. FSIS further stated that it intends to have the newly
           reconstituted and reorganized system implemented by March 2001.

           OIG Position

           We accept FSIS’ management decision for this recommendation.

                                      Review the 16 consumer complaints
  RECOMMENDATION NO. 6                previously omitted from review, and
                                      perform followup action to satisfactorily
                                      resolve them.

           Agency Response

           FSIS agrees with this recommendation and is in the process of
           reviewing the 16 consumer complaints to determine if they have
           been resolved and perform any followup action, if needed. FSIS
           stated that it will complete the review and followup by October 2000.

           OIG Position

           We accept FSIS’ management decision for this recommendation.




USDA/OIG-A/24601-4-At                                       Section IV, Page 31
Section IV, Page 32   USDA/OIG-A/24601-4-At
                  FSIS’ ENFORCEMENT ACTIONS TO DETER
                  REPEAT VIOLATORS OF MEAT AND POULTRY
 CHAPTER 3
                  INSPECTION LAWS COULD BE IMPROVED BY
                  USE OF CIVIL PENALTIES

                                          FSIS’ enforcement actions taken against
        FINDING NO. 5                     197 (11 percent) of 1,873 firms were not
                                          effective to deter them from committing
                                          additional violations of meat and poultry
           inspection laws. Within 24 months of the initial violation, several
           firms were cited again by FSIS for as many as 4 additional violations
           of meat and poultry inspection laws. In each instance, where final
           enforcement action had been taken, FSIS issued a letter of warning
           or similar letter for the violation. We found that FSIS does not have
           sufficient enforcement actions available to it to deter these firms from
           committing additional violations. Specifically, FSIS could make
           effective use of civil penalties for repeat violations that do not lend
           themselves to criminal prosecution.

           FSIS can issue letters of warning to firms for both streamline and
           standard cases for violations of the meat and poultry inspection laws.
           The letters of warning typically advise firms of their expectancy to
           “voluntarily compliance” with the meat and poultry inspection laws.
           These letters also inform firms that FSIS could seek legal actions for
           continuous violations. From January 1, 1998, through September
           30, 1999, FSIS issued 4,131 letters of warning to violators.

           A DEO headquarters official stated that a letter of warning may be
           sent to a firm for a first-time violation of meat and poultry inspection
           laws if there were no public health risks involved (streamline case).
           However, recommendations for prosecution can be made for first
           time or repeat violations depending on the nature of the offense,
           severity of the violation and the extent to which the evidence
           supports intent or gross negligence. The official also stated that in
           some cases, multiple letters of warning may be sent if the cases
           involve different offenses, if violations are over a period of time, or
           chronic noncompliance that typically would not rise to the level of
           criminal prosecution. In these cases, FSIS may develop adequate
           documentation to seek a Federal injunction, exercise some limited
           administrative authorities, or refer the matter to State or local health
           authorities. In addition, FSIS has supported statutory change to
           authorize civil penalties for cases that do not rise to the level of
           warranting criminal prosecution.

USDA/OIG-A/24601-4-At                                         Section IV, Page 33
             The area compliance case records (listing of violation cases) for the
             5 districts reviewed, showed that FSIS cited 1,873 firms for violating
             meat and poultry inspection laws between October 1, 1997, and
             September 30, 1999. Our review disclosed that 197 (11 percent) of
             these firms had a second violation case during this same period.
             Thirty-nine of these firms, primarily in the Albany, New York, district
             (mostly in the New York City area), had from 3 to 5 violation cases
             during the 2-year period. The number of firms with violations is
             shown in the table below (Note: more than one firm can be included
             in the same violation case.)

       Table 6: Violations from October 1, 1997, through September 30, 1999, for
       Five District Offices
                         NUMBER      NUMBER OF        NUMBER OF FIRMS
                           OF        FIRMS WITH         WITH TWO OR
                        VIOLATION    VIOLATION        MORE VIOLATION
          DISTRICT        CASES         CASES              CASES           PERCENT
         Alameda               330              434                 39          9%
         Albany                747              854                110         13%
         Atlanta               302              412                 31          8%
         Jackson                94               93                 10         11%
         Pickerington           78               80                  7          9%
             Totals          1,551            1,873                197         11%

             One Atlantic City, New Jersey, firm (the Albany, New York, district)
             was cited by FSIS in five separate violation cases between October
             9, 1997, and September 9, 1999. The firm’s violations involved the
             offering for sale and the sale of misbranded meat and poultry
             products in four of the five instances. The fifth instance pertained to
             the sale of non-federally inspected meat products. FSIS issued a
             letter of warning to the firm as final enforcement action for each of
             the violation cases.

             Also, in the Albany district, we identified one other firm that had
             5 violation cases and 6 firms that had 4 violation cases against them
             within the 24 months.          The violations committed included
             (1) intimidation and assault against FSIS’ compliance officers,
             (2) sale of non-federally inspected products, (3) failure to identify
             custom slaughter product as “Not for Sale,” (4) failure to maintain
             custom exempt records, (5) offering for sale misbranded meat and
             poultry products, and (6) failure to maintain and operate facility in a
             sanitary manner.      FSIS issued a letter of warning as final
             enforcement action for each of these violation cases.

             During our fieldwork, we joined compliance officers in visiting
             55 firms that were cited by FSIS for previous violations of the meat
             and poultry inspection laws during FY’s 1998 and 1999. Nine of

Section IV, Page 34                                       USDA/OIG-A/24601-4-At
            these firms had two or more violation cases within this timeframe.
            During our visits, additional violations were disclosed at 2 of the
            9 (22 percent). In total, 8 of the 55 firms we visited had additional
            violations (14.5 percent). (See exhibit G.) The two firms that were
            cited for their fourth or fifth violation during our audit period (Business
            No. 1 and Business No. 2) were custom slaughter facilities located in
            Jamaica, New York.

            During our May 20, 1999, visit to Business No. 1, we observed
            unidentifiable products and insanitary conditions as follows.

            There were no supporting records for the ownership of 29 pounds of
            lamb.


       Figure 1: 29 pounds of lamb with no record of ownership




USDA/OIG-A/24601-4-At                                            Section IV, Page 35
            Blood, meat scraps, and other debris were on the processing table,
            band saws, and floors from the previous day.


            Figure 2: Processing table covered with debris




Section IV, Page 36                                     USDA/OIG-A/24601-4-At
  Figure 3: Band saw with debris




      Figure 4: Floor showing dirt and cuttings




USDA/OIG-A/24601-4-At                             Section IV, Page 37
            Also, unlabeled meats were found at the firm. Business No. 1 had
            four violation cases between November 10, 1997, and July 13, 1999.
            The firm received another letter of warning from FSIS for these
            violations. FSIS acknowledged that this firm was a repeat violator
            but believes that the violations disclosed were not something they
            would refer for criminal prosecution. FSIS noted that additional
            reviews conducted during our audit period do not reveal any
            irregularities at this firm.

            During our May 21, 1999, visit to Business No. 2, we observed
            insanitary conditions and adulterated products on hand as follows.

            A goat head lay in a cardboard box on top of a rusty steel wool pad.
            The goat head was adulterated with rust, rusty steel wire, and hair. It
            also had been sold to a customer.


Figure 5: Goat head covered with rust, steel wire, and hair




Section IV, Page 38                                       USDA/OIG-A/24601-4-At
             Goat intestines were placed in a bowl that sat on the floor of the kill
             room. The floor had blood and other debris on it.

Figure 6: Goat Intestines exposed to debris on the kill room floor




             We also observed rodent droppings on (1) a rusty band saw,
             (2) plastic bags used for packaging meats for customers, and
             (3) floors of the kill and processing rooms.

             The firm’s history included six violation cases from August 1995 to
             May 21, 1999. Two of the violation cases, dated November 24,
             1997, and January 25, 1999, were still open, even though the firm
             twice violated a November 27, 1996, stipulation and consent
             agreement that allowed the firm to operate despite the previous
             violations committed. Business No. 2 was issued another letter of
             warning for the violations disclosed during the May 21, 1999, visit.

             FSIS officials stated that it would not recommend criminal
             prosecution based on the adulteration of one 5-pound goat heat.
             FSIS officials also informed us that on February 7, 2000, they issued
             the firm a Notice of Summary Termination of Custom Eligibility and
             on or about February 9, 2000, the custom exempt operations at this

USDA/OIG-A/24601-4-At                                          Section IV, Page 39
                  firm were terminated. However, a subsequent compliance review at
                  this firm on March 15, 2000, found that the firm had continued its
                  custom slaughter operations. The compliance officer observed and
                  detained a whole dress lamb (90 pounds) in the firm processing
                  room. The animal had apparently been slaughtered. In a signed
                  statement on March 16, 2000, the owner claimed that he did not
                  believe the Notice of Summary Termination of Custom Eligibility
                  dated February 7, 2000, still applied. The owner stated that he
                  discarded the detained lamb and thus violated the detention. The
                  owner further denied slaughtering any other animals and could not
                  account for three lambs and one goat that were missing. FSIS is
                  currently processing a violation case.

                  The two cases we illustrated above serve as good examples for why
                  we support FSIS in their efforts to obtain authority to fine firms for
                  violations of meat and poultry inspection laws, that do not warrant
                  criminal prosecution. The following represents the firms visited and
                  the number of violations observed during the audit. (See Exhibit G.)

Table 7: Number of Firms Visited and Number of Violations Observed
                                   FIRMS               VIOLATION                                 VIOLATION
                                   VISITED             CASES                 FIRMS               CASES
FIELD                              WITH TWO            ESTABLISHED           VISITED             ESTABLISHED
OFFICE             FIRMS           OR MORE             AS RESULT             WITH ONE            AS RESULT
LOCATION           VISITED         VIOLATIONS          OF VISITS             VIOLATION           OF VISITS
Diamond Bar,                111/                   2                    0                    8                   4
CA
Jamaica, NY                14 2/                   4                    2                    6                   2
Fort                       10                      2                    0                    8                   0
Lauderdale, FL
Knoxville, TN               9                      1                    0                    8                   0
Lexington, KY              11                      0                    0                   11                   0
     Totals                55                      9                    2                   41                   6
1/
   One firm was visited because of the nature of its business (rendering plant).
2/
  Four firms were visited because of the nature of their businesses (distributor, transporter, wholesaler, and
custom exempt slaughtering facility).


                  Since 1997, bills have been introduced in Congress to give the
                  Secretary the authority to assess monetary penalties against firms
                  that violate meat and poultry inspection laws. None of the bills have
                  become law.

                  ADME’s and supervisory compliance officers from the Alameda,
                  Albany, and Jackson district offices stated that the agency should
                  have the authority to fine firms or individuals that violate meat and
                  poultry inspection laws. A DEO headquarters official commented

Section IV, Page 40                                                           USDA/OIG-A/24601-4-At
           that fines for violations could have a negative economic impact
           against firms but, if implemented, fines should be severe enough to
           deter further violations.

           We concluded that FSIS should continue to seek the authority to
           assess monetary penalties against firms that commit repeat
           violations of meat and poultry inspection laws. Additionally, FSIS
           should be more aggressive in utilizing the authorities it currently has,
           including seizures, injunctions, withdrawal of custom exempt status,
           and prosecutions, against repeat violators of the meat and poultry
           inspection laws.

                                        Continue to seek the authority to assess
  RECOMMENDATION NO. 7                  civil monetary penalties against firms
                                        that commit violations of meat and
                                        poultry inspection laws.

           Agency Response

           FSIS agrees with this recommendation that civil penalties would be
           an effective supplement to its current criminal and administrative
           authorities. FSIS stated that civil penalties, while having somewhat
           limited application, would provide it with an additional tool to deter
           violations of USDA laws and would be particularly effective in
           preventing minor violations of law and address situations where
           criminal prosecution or other action is not appropriate. FSIS stated
           that it will continue to work with Congress, industry, and the public to
           obtain this additional authority.

           OIG Position

           We accept FSIS’ management decision for this recommendation.




USDA/OIG-A/24601-4-At                                         Section IV, Page 41
Section IV, Page 42   USDA/OIG-A/24601-4-At
                   DEO DETERMINED THAT MOST CASES
 CHAPTER 4         REFERRED BY DISTRICTS WERE NOT
                   RPOSECUTABLE

                                     DEO determined that over half of the
        FINDING NO. 6                cases received from district offices did
                                     not require referral for prosecution.
                                     District offices refer standard cases to
           DEO headquarters for possible prosecution action by the U.S.
           attorney, through OGC.        We found that DEO headquarters
           determined 27 of the 41 cases (66 percent) referred from October 1,
           1997, through February 28, 1999, did not require referral for
           prosecution. DEO officials stated that the cases did not have
           prosecutable merit or some ADME’s and supervisory compliance
           officers did not have enough training or supervisory experience to
           properly prepare and submit violation cases.          As a result,
           enforcement actions against these violators were delayed.

           DEO’s compliance Investigative Protocols provides for establishing
           standard cases for violations involving likely harm to consumers,
           either physical or financial. These cases are forwarded to DEO
           headquarters for their review and for possible referral to OGC so the
           appropriate civil, administrative, or criminal actions can be taken.

           Between October 1, 1997, and February 28, 1999, 41 standard
           cases were developed by compliance officers in the FSIS’ district
           and field offices and submitted to DEO headquarters for review and
           possible referral to OGC for further action. Our review disclosed that
           DEO headquarters determined 27 of the 41 (66 percent) cases
           received from the districts did not require referral.               DEO
           headquarters officials stated the cases did not have prosecutable
           merit or were not fully developed by compliance officers. According
           to the officials (1) 21 of the cases did not have sufficient evidence for
           prosecution, (2) 3 cases were not fully developed by the compliance
           officers, (3) the firms for 2 cases were no longer in business, and
           (4) 1 firm had been previously prosecuted by the state for the same
           violation. (See exhibit H for more details.) Instead, the agency
           issued letters of warning to 24 of the firms and took no action for the
           remaining 3 firms.

           In one example of a case not being fully developed, the Beltsville,
           Maryland, district office prepared a Report of Apparent Violation,
           dated December 9, 1998, that reported a federally inspected plant
           sold and transported via interstate commerce approximately
USDA/OIG-A/24601-4-At                                         Section IV, Page 43
            479,470 pounds of adulterated and misbranded pork bacon ends
            and pieces from Virginia to a food processing company in Kansas.
            The shipments were contaminated with various foreign materials
            such as metal, cardboard, paper, and rubber. The compliance
            officer became aware of the adulteration during a random review visit
            to the Virginia plant. He examined the plant’s records and found
            several credit memos and nonconformance reports that showed the
            plant may have been aware of these possible violations.

            The responsible ADME referred the case to DEO headquarters for
            prosecution.      However, headquarters officials stated that the
            documentary evidence was not sufficient to prove that the plant
            knowingly sold adulterated and misbranded products and the
            products did not appear to have been tampered with. The officials
            stated that the case was not prosecutable because the compliance
            officer had not proven criminal intent on the part of the Virginia plant.
            The ADME responded by obtaining additional information. However,
            headquarters officials decided that the additional information did not
            enhance the case. The ADME and headquarters officials agreed to
            issue a letter of warning as final enforcement action.

            In another example where a case was not fully developed, the
            Springdale, Arkansas, district office prepared a Report of Apparent
            Violation, dated October 13, 1997, that reported a firm sold and
            transported approximately 1,150 pounds of adulterated and
            misbranded frozen pork ribs into commerce from Minnesota to
            Louisiana. The 39 boxes of ribs had no labeling or marks of
            inspections, were “slimy,” and had a “soured putrid” odor. The
            product was detained and destroyed on May 6, 1997.

            On June 5, 1998, (235 days following the date of the Report of
            Apparent Violation) DEO headquarters made a decision to close the
            case with a letter of warning. A headquarters official stated that the
            evidence was inconclusive based on the following.

            v The product was repacked at a federally inspected plant after
              being resorted.

            v The product was sold sight unseen.

            v The firm never acknowledged knowing there was a problem with
              the product.

            The DEO headquarters official stated that the compliance review
            was not sufficiently documented to show the firm had knowledge of

Section IV, Page 44                                       USDA/OIG-A/24601-4-At
           the product being adulterated and misbranded. The ADME agreed
           with the headquarters decision on the case and questioned why the
           compliance officer and the supervisor compliance officer thought the
           case was prosecutable. FSIS issued a letter of warning to the firm.

           Another DEO headquarters official stated that many of the cases
           sent to headquarters for review were not fully developed. He said
           that some compliance officers, supervisors, and ADME’s were not
           experienced or trained to properly develop standard violation cases.
           The official further stated that when DEO reorganized from 5 area
           offices to 18 district offices, DEO did not have enough supervisory
           experience in the field to properly prepare and submit standard
           violation cases. He said that several ADME’s had little or no
           experience in preparing standard violation cases.

                                  Reinforce       existing     compliance
  RECOMMENDATION NO. 8            Investigative Protocols  for  developing
                                  standard violation cases.         Provide
                                  training where needed to ensure that all
        ADME’s and supervisory compliance officers are able to properly
        oversee reviews and case preparation for appropriate sanctions and
        determinations.

           Agency Response

           FSIS agrees with the recommendation and stated that it has already
           taken steps to reinforce existing protocols, procedures, and assure
           appropriate training of DEO personnel. FSIS stated that it has
           developed orientation and training protocols for newly hired
           compliance officers and supervisory personnel. FSIS also stated
           that it is currently recruiting to address the 58 percent vacancy rate
           for the supervisory compliance officer position, which is needed to
           provide proper supervision of reviews and case preparation. FSIS
           further stated it is the agency’s priority to fill these positions as soon
           as possible.

           OIG Position

           We agree with FSIS’ proposed action.            However, to reach
           management decision, FSIS needs to provide us with its newly
           developed orientation and training protocols for new hires. Also,
           FSIS needs to provide its plan for recruiting compliance officers and
           the estimated timeframe for when these position will be filled.




USDA/OIG-A/24601-4-At                                          Section IV, Page 45
EXHIBIT A – DISTRICT OFFICES VISITED
                                                                                                    1/
                                                                                          NO. OF
             DISTRICT                  OVERSIGHT                   FIELD                 COMPLIANCE
              OFFICE               RESPONSIBILITY                 OFFICE                 OFFICERS
      1 Alameda, CA              California                Alameda, CA                       6
                                                           Diamond Bar, CA                   5
                                                           Fresno, CA                        2
                                                           Sacramento, CA                    2
                                                           San Diego, CA                     1
         District Total                                                                     16
      2 Albany, NY               New Jersey                Bogota, NJ                        3
                                                           Moorestown, NJ                    4
                                 New York                  Albany, NY                        5
                                                           Jamaica, NY                       6
                                                           Rochester, NY                     2
                                 Connecticut               Hartford, CT                        3
                                 Maine                     Augusta, ME                         1
                                 Massachusetts             Waltham, MA                         6
                                 New Hampshire
                                 Rhode Island
                                 Vermont

         District Total                                                                       30
      3 Atlanta, GA              Florida                   Fort Lauderdale, FL                4
                                                           Orlando, FL                        3
                                                           Tallahassee, FL                    2
                                 Georgia                   Atlanta, GA                        3
                                 Puerto Rico               Guaynabo, PR                       4
                                                           Ponce, PR                          1
                                 Virgin Islands
         District Total                                                                       17
1/
     According to “Meat and Poultry Inspection Directory,” dated July 1999.
Note: The Boston, MA district office was closed in July 1999 and its oversight responsibility was transferred
to the Atlanta, GA district office (Puerto Rico and the Virgin Islands) and the Albany, NY district office
(Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island and Vermont).




USDA/OIG-A/24601-4-At                                                                Section IV, Page 49
EXHIBIT A – DISTRICT OFFICES VISITED (CONT’)
                                                                                       NO. OF 1/
             DISTRICT                 OVERSIGHT                     FIELD             COMPLIANCE
              OFFICE                RESPONSIBILITY                 OFFICE              OFFICERS
      4 Jackson, MS              Alabama                   Gadsden, AL                     1
                                                           Montgomery, AL                  1
                                 Mississippi               Ridgeland, MS                   1
                                 Tennessee                 Knoxville, TN                   2
                                                           Nashville, TN                   1
         District Total                                                                    6
      5 Pickerington, OH         Kentucky                  Lexington, KY                   2
                                 Ohio                      Middleburg Heights,             2
                                                           OH
                                                           Pickerington, OH                3
                                 West Virginia
         District Total                                                                    7
         Total                                                                             76
1/
     According to “Meat and Poultry Inspection Directory,” dated July 1999.




     Section IV, Page 50                                                         USDA/OIG-A/24601-4-At
EXHIBIT A – LIST OF OTHER FSIS DISTRICT OFFICES
                                                                                            1/
                                                                                   NO. OF
             DISTRICT                 OVERSIGHT                     FIELD          COMPLIANCE
              OFFICE                RESPONSIBILITY                 OFFICE          OFFICERS
      6 Boulder, CO              Arizona                   Phoenix, AZ
                                 Colorado                  Boulder, CO                 6
                                 New Mexico                Albuquerque, NM             1
                                 Utah                      Salt Lake City, UT          2
         District Total                                                                9
      7 Lombard, IL              Illinois                  Lombard, IL                 5
                                                           Springfield, IL             3
                                 Indiana                   Indianapolis, IN            3
         District Total                                                                11
      8 Dallas, TX               Texas                     Dallas, TX                  4
                                                           Lubbock, TX                 2
                                                           Houston, TX                 2
                                                           San Antonio, TX             3
         District Total                                                                11
      9 Des Moines, IA           Iowa                      Des Moines, IA              3
                                 Nebraska                  Lincoln, NE                 3
         District Total                                                                6
     10 Greenbelt, MD            Delaware
                                 District of Columbia
                                 Maryland                  Baltimore, MD               2
                                                           Beltsville, MD              3
                                 Virginia                  Richmond, VA                2
         District Total                                                                7
     11 Lawrence, KS             Kansas                    Lawrence, KS                3
                                 Missouri                  Florissant, MO              1
                                                           Springfield, MO             1
         District Total                                                                5
     12 Madison, WI              Michigan                  Oak Park, MI                7
                                                           Grandville, MI              2
                                 Wisconsin                 Madison, WI                 3
         District Total                                                                12
1/
     According to “Meat and Poultry Inspection Directory,” dated July 1999.




USDA/OIG-A/24601-4-At                                                           Section IV, Page 51
EXHIBIT A – LIST OF OTHER FSIS DISTRICT OFFICES (CONT’)
                                                                                                1/
                                                                                       NO. OF
             DISTRICT                 OVERSIGHT                        FIELD           COMPLIANCE
              OFFICE               RESPONSIBILITY                     OFFICE           OFFICERS
     13 Minneapolis, MN          Minnesota                  S. St. Paul, MN                4
                                 Montana                    Billings, MT                   1
                                 North Dakota               Bismarck, ND                   1
                                 South Dakota               Sioux Falls, SD
                                 Wyoming
         District Total                                                                   6
     14 Philadelphia, PA         Pennsylvania               Philadelphia, PA              4
                                                            Pittsburgh, PA                4
                                                            Scranton, PA                  2
         District Total                                                                   10
     15 Raleigh, NC              North Carolina             Raleigh, NC                   2
                                 South Carolina             Columbia, SC                  3
         District Total                                                                   5
     16 Salem, OR                Alaska
                                 American Samoa
                                 Guam
                                 Hawaii                     Honolulu, HI                   2
                                 Idaho                      Boise, ID                      1
                                 Northern Mariana
                                 Islands
                                 Oregon                     Salem, OR                      3
                                 Washington                 Bothell, WA                    2
                                                            Spokane, WA                    2
         District Total                                                                    10
     17 Springdale, AR           Arkansas                   Little Rock, AR                3
                                                            Springdale, AR                 3
                                 Louisiana                  New Orleans, LA                4
                                 Oklahoma                   Oklahoma City, OK              1
         District Total                                                                    11
         FSIS Total                                                                       179
1/
     According to “Meat and Poultry Inspection Directory, “ dated July 1999.




     Section IV, Page 52                                                        USDA/OIG-A/24601-4-At
EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED
   DISTRICT         FIELD                                                          TYPE OF
    OFFICE         OFFICE               LOCATION              TYPE OF FIRM         REVIEW
Alameda, CA   Diamond Bar, CA.      Montebello, CA          Distributor            PCP
Alameda, CA   Diamond Bar, CA       Los Angeles, CA         Retailer               PCP
Alameda, CA   Diamond Bar, CA       Corona, CA              Custom Slaughter       PCP
Alameda, CA   Diamond Bar, CA       Los Angeles, CA         Retailer               PCP
Alameda, CA   Diamond Bar, CA       Riverside, CA           Warehouse              PCP
Alameda, CA   Diamond Bar, CA       Los Angeles, CA         Distributor            PCP
Alameda, CA   Diamond Bar, CA       Chino, CA               Processor              PCP
Alameda, CA   Diamond Bar, CA       Ontario, CA             Retailer               PCP
Alameda, CA   Diamond Bar, CA       Ontario, CA             4-D                    PCP
Alameda, CA   Diamond Bar, CA       Chino, CA               Distributor/Retailer   PCP
Alameda, CA   Diamond Bar, CA       Corona, CA              Custom Slaughter       PCP
Alameda, CA   Diamond Bar, CA       Bell Garden, CA         Distributor            Random
Alameda, CA   Diamond Bar, CA       N. Hollywood, CA        Distributor            Random
Alameda, CA   Diamond Bar, CA       Rancho Cucamonga,       Transporter            Random
                                    CA
Alameda, CA   Diamond Bar, CA       Chino, CA               Retailer               Random
Alameda, CA   Diamond Bar, CA       Ontario, CA             Distributor            Random
Alameda, CA   Diamond Bar, CA       Sun Valley, Ca          Retailer               Random
Albany, NY    Jamaica, NY           Jamaica, NY             Custom Slaughter       PCP
Albany, NY    Jamaica, NY           New York, NY            Distributor            PCP
Albany, NY    Jamaica, NY           Bronx, NY               Custom Slaughter       PCP
Albany, NY    Jamaica, NY           Avenel, NJ              Transporter            PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Retailer               PCP
Albany, NY    Jamaica, NY           New York, NY            Distributor            PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Retailer               PCP
Albany, NY    Jamaica, NY           Wappingers, NY          Distributor            PCP
Albany, NY    Jamaica, NY           Greenwich Village, NY   Retailer               PCP
Albany, NY    Jamaica, NY           Brooklyn, NY            Distributor            PCP
Albany, NY    Jamaica, NY           Richmond Hill, NY       Retailer               PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Custom Slaughter       PCP
Albany, NY    Jamaica, NY           Ozone Park, NY          Abattoir               PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Processor              PCP
Albany, NY    Jamaica, NY           New York, NY            Distributor            Random
Albany, NY    Jamaica, NY           New York, NY            Retailer               Random
Albany, NY    Jamaica, NY           New York, NY            Distributor            Random
Albany, NY    Jamaica, NY           Laurelton, NY           Retailer               Random
Albany, NY    Jamaica, NY           Jersey City, NJ         Distributor            Random
Atlanta, GA   Fort Lauderdale, FL   Miami Gardens, FL       Warehouse              PCP
Atlanta, GA   Fort Lauderdale, FL   North Miami Beach, FL   Broker/Salvage         PCP
Atlanta, GA   Fort Lauderdale, FL   Miami Lakes, FL         Retailer               PCP
Atlanta, GA   Fort Lauderdale, FL   Delray Beach, FL        Distributor            PCP




USDA/OIG-A/24601-4-At                                                      Section IV, Page 53
EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED (CONT.)

   DISTRICT              FIELD                                                            TYPE OF
    OFFICE              OFFICE               LOCATION            TYPE OF FIRM             REVIEW
Atlanta, GA        Fort Lauderdale, FL   Hollywood, FL         Distributor                PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Distributor                PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Retailer                   PCP
Atlanta, GA        Fort Lauderdale, FL   Hollywood, FL         Retailer                   PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Retailer                   PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Broker                     PCP
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Correctional Institution   Random
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Retailer                   Random
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Distributor                Random
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Retailer                   Random
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Processor/Distributor      Random
Atlanta, GA        Fort Lauderdale, FL   West Palm Beach, FL   Child Care Center          Random
Atlanta, GA        Fort Lauderdale, FL   Delray Beach, FL      Distributor                Random
Jackson, MS        Knoxville, TN         Chattanooga, TN       Distributor                PCP
Jackson, MS        Knoxville, TN         Alcoa, TN             Salvage                    PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Clinton, TN           Retailer                   PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Chattanooga, TN       Processor                  PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Warehouse                  PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Chattanooga, TN       Warehouse                  Random
Jackson, MS        Knoxville, TN         Clinton, TN           Retailer                   Random
Jackson, MS        Knoxville, TN         Sevierville, TN       Medical Center             Random
Jackson, MS        Knoxville, TN         Chattanooga, TN       Mental Institution         Random
Jackson, MS        Knoxville, TN         Sevierville, TN       Retailer                   Random
Jackson, MS        Knoxville, TN         Alcoa, TN             Retailer                   Random
Jackson, MS        Knoxville, TN         Knoxville, TN         Public School              Random
Jackson, MS        Knoxville, TN         Clinton, TN           Retailer                   Random
Pickerington, OH   Lexington, KY         Louisville, KY        Retailer                   PCP
Pickerington, OH   Lexington, KY         Lexington, KY         Hospital                   PCP
Pickerington, OH   Lexington, KY         Walton, KY            Processor/Custom           PCP
                                                               Slaughter
Pickerington, OH   Lexington, KY         Shelbyville, KY       Retailer                   PCP
Pickerington, OH   Lexington, KY         Lancaster, KY         Retailer/Restaurant        PCP
Pickerington, OH   Lexington, KY         Mt. Sterling, KY      Warehouse                  PCP
Pickerington, OH   Lexington, KY         Shelbyville, KY       4-D                        PCP
Pickerington, OH   Lexington, KY         Bellevue, KY          Retailer                   PCP
Pickerington, OH   Lexington, KY         Louisville, KY        Distributor/ Retailer      PCP




 Section IV, Page 54                                                   USDA/OIG-A/24601-4-At
EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED (CONT.)

   DISTRICT              FIELD                                          TYPE OF
    OFFICE              OFFICE         LOCATION      TYPE OF FIRM       REVIEW
Pickerington, OH   Lexington, KY   Lancaster, KY    Custom Slaughter    PCP
Pickerington, OH   Lexington, KY   Louisville, KY   Restaurant          PCP
Pickerington, OH   Lexington, KY   Louisville, KY   Renderer            Random
Pickerington, OH   Lexington, KY   Covington, KY    Retailer            Random
Pickerington, OH   Lexington, KY   Lexington, TN    Retailer            Random
Pickerington, OH   Lexington, KY   Louisville, KY   Renderer            Random
Pickerington, OH   Lexington, KY   Covington, KY    Restaurant          Random
Pickerington, OH   Lexington, KY   Covington, KY    Retailer            Random
Pickerington, OH   Lexington, KY   Lexington, TN    Distributor         Random
Pickerington, OH   Lexington, KY   Louisville, KY   Renderer            Random
Pickerington, OH   Lexington, KY   Covington, KY    Retailer            Random




USDA/OIG-A/24601-4-At                                           Section IV, Page 55
EXHIBIT C – COMPLIANCE ACTIVITY REVIEWED FROM OCTOBER 1,
            1997 THROUGH FEBRUARY 28, 1999

                                               ACTIVITY
                               Violation                                 Random             Consumer
                                Cases                  PCP               Reviews            Complaints
ALAMEDA
District Total                    191                  1304                1150                  204
Reviewed by OIG                    20                   10                 188                   55
ALBANY
District Total                    262                  2528                5120                  143
Reviewed by OIG                    20                   10                 1256                  115
ATLANTA
District Total                    106                  1558                 581                  236
Reviewed by OIG                    22                   14                   76                  25
JACKSON
District Total                     54                  578                  732                  132
Reviewed by OIG                    28                  11                   156                  132
PICKERINGTON
District Total                     43                  303                  935                  143
Reviewed by OIG                    21                  12                   409                  17

                                TOTAL COMPLIANCE ACTIVITY
                               Violation                                 Random             Consumer
                                Cases                  PCP               Reviews            Complaints
Total for Eighteen
Districts                         2605                 9901                25122                1654
Total for Five Districts
Visited                           656                  6271                8518                  858
Total Reviewed by OIG
                                  111*                  57                 2085                  344
Percent Reviewed by
OIG                               17%                   1%                  24%                 40%

*We reviewed 111 violation cases at the 5 district offices visited. We also reviewed an additional closed 41
 violation cases at DEO headquarters for enforcement actions and 116 violation cases at DEO headquarters
 for processing timeframes.




 Section IV, Page 56                                                          USDA/OIG-A/24601-4-At
EXHIBIT D - TYPES OF FIRMS

BUSINESS CODE NO.       TYPE OF FIRM                  INCLUDES
         01             Processor                     Boner, Fabricator, Cannery,
                                                      Packer, Country Hams
          02            Distributor                   Peddler, Route, Sales
          03            Renderer
          04            Broker
          05            4-D (dead, dying, disabled,   Collector
                        or diseased)
          06            Retailer                      Farmers Market, Lease
                                                      Arrangements
          07            Transporter                   Trucker, Railroad, Airlines,
                                                      Ships
          08            Custom                        Locker Plant
          09            Restaurant                    Caterer, Commissary,
                                                      Central, Kitchen
          10            Abattoir
          11            Animal Food                   Mink Farm, Pet Food
                                                      Manufacturer
          12            Warehouse                     Freezer, Cold Storage
                                                      Warehouse
          13            Salvage
          14            Miscellaneous                 Consumer, Auction




USDA/OIG-A/24601-4-At                                         Section IV, Page 57
EXHIBIT E – PROCESSING TIMEFRAMES FOR CLOSED VIOLATION
            CASES
                                (B)           (B-A)         (C)                  (C-B)   (C-A)
           (A)                 DATE         ELAPSED        DATE           (D)  ELAPSED TOTAL
       PREDICATION           RECEIVED         DAYS         CASE        CLOSURE DAYS AT ELAPSED
NUMBER    DATE                DEO HQ         AT DO        CLOSED        ACTION  DEO-HQ   DAYS
1              27-May-98       24-Jun-98             28   06-Aug-98 OTH                     43          71
2              16-May-97      11-Feb-98            271     24-Jun-98 LOW                  133         404
3               03-Apr-98     10-Nov-98            221    15-Mar-99 LOW                   125         346
4               11-Jun-97     29-Oct-97            140    18-Nov-97 LOI                    20         160
5              03-Mar-97      11-Feb-98            345    05-Aug-98 NOA                   175         520
6              29-May-98      02-Sep-98             96    06-Apr-99 LOW                   216         312
7              06-Nov-97      27-Feb-98            113    06-Aug-98 LOW                   160         273
8               03-Jun-98      20-Oct-98           139     13-Jan-99 LOW                    85        224
9               06-Oct-98      26-Jan-99           112     06-Apr-99 LOW                    70        182
10             05-Feb-98      05-Mar-98             28    13-May-98    NOA                 69          97
11             14-Oct-97      20-Aug-98            310     29-Jan-99   STADM              162         472
12             26-Sep-97      28-Jan-98            124    28-May-98    LOW                120         244
13             11-Jun-98       31-Jul-98            50    07-Aug-98    LOW                  7          57
14             01-Oct-97      01-Oct-97              0     07-Oct-97   STINJ                6           6
15              29-Jul-98     11-Dec-98            135     19-Apr-99   LOW                129         264
16             10-Aug-98      29-Oct-98             80    05-May-99    LOW                188         268
17             24-Mar-98       24-Apr-98            31     22-Jul-98   LOW                 89         120
18             21-Sep-98      19-Oct-98             28    10-Dec-98    LOW                 52          80
19             03-Feb-98      13-Feb-98             10    12-May-98    NOA                 88          98
20             15-Dec-98      29-Jan-99             45     06-Apr-99   LOW                 67         112
21              20-Jul-98     17-Aug-98             28    30-Dec-98    LOW                135         163
22             16-Jun-98      15-Sep-98             91    25-Aug-99    LOW(2)             344         435
23             24-Feb-98      23-Jun-98            119    18-Aug-98    LOW                 56         175
24             07-Mar-98      23-Jun-98             77    29-Dec-98    NOA                189         266
25             12-Mar-98      23-Jun-98            103    10-Aug-98    LOW                 48         151
Key: LOW = Letter of Warning, LOI = Letter of Information, STADM = State Administrative Action
     STINJ = State Injunction, OTH = Other, NOA= No Action, DO=District Office, DEO-HQ=District Enforcement
     Operations - Headquarters




 Section IV, Page 58                                                      USDA/OIG-A/24601-4-At
EXHIBIT E – PROCESSING TIMEFRAMES FOR CLOSED VIOLATION
            CASES (CONT’)
                                   B              B-A            C                   C-B      C-A
            A                     DATE         ELAPSED         DATE           D    ELAPSED TOTAL
       PREDICATION              RECEIVED         DAYS          CASE        CLOSURE DAYS AT ELAPSED
NUMBER    DATE                   DEO HQ         AT DO         CLOSED        ACTION DEO-HQ    DAYS
26               10-Jun-98        31-Aug-98             82    29-Mar-99 LOW                     210           292
27               30-Sep-98        08-Feb-99            131     21-Jul-99 LOW                    163           294
28               17-Mar-98        16-Apr-98             30     24-Jul-98 NOA                     99           129
29               26-Jan-98        08-Apr-98             72 14-May-99 STADM                      401           473
30               25-Aug-97        03-Apr-98            221 14-Dec-98 LOW                        255           476
31               14-Dec-98        21-Jan-99             38    27-Jan-99 LOW                       6            44
32               06-Feb-98        25-Feb-98             19    20-Aug-98 LOW                     176           195
33                07-Apr-98       17-Sep-98            163 01-Dec-98 LOW                         75           238
34               05-May-98        29-Sep-98            147 02-Mar-99 LOW                        154           301
35                18-Apr-96       27-Dec-97            618 18-May-98 LOW                        142           760
Totals                                               4,245                                    4,457       8,702
Count                                                   35                                       35          35
Average                                                121                                      127         249
Days
Note: These violation cases were predication on or after October 1, 1997, and closed by September 30, 1999.




USDA/OIG-A/24601-4-At                                                               Section IV, Page 59
     EXHIBIT F – PROCESSING TIMEFRAMES FOR OPEN VIOLATION
                 CASES AS OF SEPTEMBER 30, 1999
                              (B)        (B-A)     (C)                  (C-B)      (C-A)
               (A)           DATE      ELAPSED    CASE                ELAPSED     TOTAL
           PREDICATION     RECEIVED      DAYS     OPEN                DAYS AT    ELAPSED
NUMBER        DATE          DEO HQ      AT DO     AS OF      STATUS   DEO-HQ       DAYS
1         30-Dec-98        05-Feb-99      37     30-Sep-99   DEO           237          274
2         01-Sep-98        12-Mar-99     192     24-Aug-99   OGC           165          357
3         21-Mar-97        24-Oct-97     217     31-Jul-99   USA           280          497
4         21-Mar-97        24-Oct-97     217     30-Sep-99   USA           280          497
5         03-Jul-97        02-Dec-97     152     30-Sep-99   USA           127          279
6         29-Aug-98        22-Dec-98     115     30-Sep-99   DEO           282          397
7         13-Aug-98        26-Jan-99     166     30-Sep-99   DEO           247          413
8         16-Jun-98        18-May-99     336     10-Aug-99   OGC            84          420
9         21-Jan-99        04-Aug-99     195     30-Sep-99   DEO            57          252
10        02-Sep-97        25-Aug-98     357     28-Jan-99   USA           156          513
11        09-Oct-98        24-Feb-99     138     30-Sep-99   DEO           218          356
12        19-Aug-98        02-Aug-99     348     30-Sep-99   DEO            59          407
13        02-Apr-98        22-Sep-98     173     30-Sep-99   DEO           373          546
14        02-Oct-98        22-Jan-99     112     30-Sep-99   DEO           251          363
15        16-Dec-98        24-Feb-99      70     30-Sep-99   DEO           218          288
16        28-Oct-98        23-Jul-99     268     30-Sep-99   DEO            69          337
17        10-Mar-99        27-Aug-99     170     30-Sep-99   DEO            34          204
18        07-May-98        16-Sep-99     497     30-Sep-99   DEO            14          511
19        08-Sep-98        30-Aug-99     356     30-Sep-99   DEO            31          387
20        24-Nov-97        29-Sep-98     309     05-Apr-99   OGC           188          497
21        18-May-99        18-May-99       0     30-Sep-99   DEO           135          135
22        21-Jul-98        30-Dec-98     162     29-Apr-99   USA           120          282
23        11-Aug-98        19-Nov-98     100     30-Sep-99   DEO           315          415
24        02-Apr-98        07-Aug-98     127     30-Sep-99   DEO           419          546
25        04-Aug-98        30-Oct-98      87     30-Mar-99   OGC           151          238
26        28-Jul-98        08-Jan-99     164     17-Sep-99   OGC           252          416
27        28-Jul-98        08-Jan-99     164     17-Sep-99   OGC           252          416
28        28-Jul-98        19-Nov-98     114     17-Sep-99   OGC           302          416
29        03-Nov-97        28-Apr-99     541     30-Sep-99   DEO           155          696
30        02-Oct-98        20-Jul-99     291     30-Sep-99   DEO            72          363
31        06-Jun-97        09-Oct-97     125     24-Nov-98   USA           411          536




     Section IV, Page 60                                        USDA/OIG-A/24601-4-At
     EXHIBIT F - PROCESSING TIMEFRAMES FOR OPEN VIOLATION
                 CASES AS OF SEPTEMBER 30, 1999 (CONT’)
                            (B)        (B-A)     (C)                    (C-B)       (C-A)
               (A)         DATE      ELAPSED    CASE                  ELAPSED      TOTAL
           PREDICATION   RECEIVED      DAYS     OPEN                  DAYS AT     ELAPSED
NUMBER        DATE        DEO HQ      AT DO     AS OF      STATUS     DEO-HQ        DAYS
32         21-Jul-98     13-Oct-98      84     30-Sep-99   DEO              352       436
33         16-Feb-99     26-May-99      99     30-Sep-99   DEO              127       226
34         05-Aug-97     27-Oct-97      83     30-Sep-99   DEO              703       786
35         28-May-97     09-Oct-97     134     30-Sep-99   DEO              721       855
36         16-Jul-98     30-Nov-98     137     30-Sep-99   DEO              304       441
37         25-Jun-98     10-Dec-98     168     30-Sep-99   DEO              294       462
38         02-Nov-98     13-Jul-99     253     30-Sep-99   DEO               79       332
39         15-Jul-98     21-Jan-99     190     30-Sep-99   DEO              252       442
40         18-Dec-98     13-Jan-99      26     30-Sep-99   DEO              260       286
41         20-Nov-98     19-Jan-99      60     30-Sep-99   DEO              254       314
42         01-Mar-99     12-Mar-99      11     30-Sep-99   DEO              202       213
43         08-Mar-99     15-Apr-99     38-     30-Sep-99   DEO              168       206
44         08-Jun-99     18-Jun-99      10     30-Sep-99   DEO              104       114
45         20-Aug-98     29-Oct-98      70     30-Sep-99   DEO              336       406
46         30-Sep-98     29-Oct-98      29     30-Sep-99   DEO              336       365
47         01-Dec-98     18-Feb-99      79     30-Sep-99   DEO              224       303
48         11-Mar-99     19-May-99      69     30-Sep-99   DEO              134       203
49         13-Mar-99     04-May-99      52     30-Sep-99   DEO              149       201
50         09-Jun-98     19-Jul-98      40     30-Sep-99   DEO              438       478
51         22-Apr-99     09-Jul-99      78     22-Jul-99   OGC               13        91
52         29-Apr-99     29-Jul-99      91     30-Sep-99   DEO               63       154
53         04-May-99     17-Aug-99     105     30-Sep-99   DEO               44       149
54         22-May-97     23-Jun-98     397     30-Sep-99   DEO              464       861
55         23-Feb-99     29-Apr-99      65     10-Aug-99   OGC              103       168
56         25-Nov-98     01-Jul-99     218     30-Sep-99   DEO               91       309
57         17-Dec-98     29-Apr-99     133     30-Sep-99   DEO              154       287
58         18-Sep-98     17-Aug-99     333     30-Sep-99   DEO               44       377
59         30-Jul-98     30-Nov-98     123     30-Sep-99   DEO              304       427
60         30-Jun-98     04-Jun-99     339     30-Sep-99   DEO              118       457
61         11-Mar-98     23-Sep-98     196     30-Sep-99   DEO              372       568
62         15-Jan-98     20-Oct-98     278     30-Sep-99   DEO              345       623
63         05-Apr-99     23-Jun-99      79     30-Sep-99   DEO               99       178




     USDA/OIG-A/24601-4-At                                          Section IV, Page 61
   EXHIBIT F - PROCESSING TIMEFRAMES FOR OPEN VIOLATION
               CASES AS OF SEPTEMBER 30, 1999 (CONT’)
                               (B)          (B-A)        (C)                    (C-B)        (C-A)
                (A)           DATE        ELAPSED       CASE                  ELAPSED       TOTAL
            PREDICATION     RECEIVED        DAYS        OPEN                  DAYS AT      ELAPSED
NUMBER         DATE          DEO HQ        AT DO        AS OF      STATUS     DEO-HQ         DAYS
64         13-Jan-98        08-Oct-98        268       04-Jun-99   USA              239         507
65         25-Jan-98        4-Aug-99         556       30-Sep-99   DEO                57        613
66         24-May-99        23-Sep-99        122       30-Sep-99   DEO                 7        129
67         19-Nov-97        16-Apr-98        148       30-Sep-99   DEO              532         680
68         12-Mar-98        08-Jul-98        118       22-Jun-99   USA              349         467
69         08-Oct-98        17-Feb-99        132       30-Sep-99   DEO              225         357
70         06-Feb-98        19-Aug-99        559       30-Sep-99   DEO                42        601
71         24-Feb-99        25-May-99         90       20-Jul-99   USA                56        146
72         05-Dec-95        31-Jul-98        969       19-Nov-99   USA              111        1080
73         20-Feb-98        17-Sep-98        209       30-Sep-99   DEO              378         587
74         21-Jul-97        28-Jul-98        372       30-Sep-99   DEO              429         801
75         12-Jun-97        10-Dec-97        181       18-Mar-98   USA                98        279
76         30-Apr-97        10-Dec-97        224       10-Mar-98   USA                90        314
77         20-Jul-98        29-Sep-98         71       30-Sep-99   DEO              366         437
78         08-Oct-98        26-Feb-99        141       14-Sep-99   OGC              200         341
79         14-Jan-99        09-Apr-99         85       30-Sep-99   DEO              174         259
80         26-Aug-99        03-Sep-99          8       30-Sep-99   DEO                27          35
81         06-Apr-98        14-Jul-98         99       08-Apr-99   OGC              268         367
Totals                                        14,719                              17,259      31,972

Count                                            81                                   81          81
Average                                         182                                  213         395
Days

Note: The column titled “CASE OPEN AS OF” is either the date the case was currently being reviewed at
DEO-headquarters through September 30, 1999, or the date the case was transferred out of DEO-
headquarters for review at OGC and subsequently to the USA, if appropriate.

Key – USA=United States Attorney, OGC=Office of General Counsel, DO=District Offices, DEO=District
Enforcement Operations




    Section IV, Page 62                                               USDA/OIG-A/24601-4-At
EXHIBIT G – VIOLATIONS DISCLOSED DURING OIG VISITS


TYPE OF                          DATE      ENFORCEMENT                          HISTORY
FIRMS          LOCATION VISITED ACTION                             DATE         ACTION          DATE
Custom         Chino, CA       6/29/99 LOW                     8/2/99   LOW            5/5/97
Exempt
Slaughter
FINDING: Found 28 pounds (one beef head, one hog head, and one goat head) of products that was not
associated with an owner. The custom slaughter records were incomplete.

VIOLATIONS: Failure to maintain custom exempt records and failure to identify custom exempt meat
products as “Not for Sale.”

Custom         Corona, CA      6/29/99    LOW                   8/2/99     LOW             9/11/96
Exempt
Slaughter
FINDING: Observed five pounds of pork lungs and liver not associated with an owner. Also records did
not account for animals slaughtered on June 27, 28, and 29, 1999.

VIOLATIONS: Failure to maintain custom exempt records and failure to identify custom exempt meat
products as “Not for Sale.”

Retailer    Ontario, CA       7/1/99     LOW                   8/2/99      LOW                3/19/99
FINDING: Retailer sold beef and pork tacos and chile verde dinners to another retailer in a catering truck.

VIOLATION: Sale of non-Federally inspected meat products.

Custom         Corona, CA        6/30/99 LOW                    8/11/99      LOW              9/4/97
Exempt
Slaughter
FINDING: Failed to maintain accurate records. Compliance officer detained 2,400 pounds of products, of
which 1,570 pounds were destroyed. Also, the firm failed to maintain control of persons who threatened,
intimidated, and interfered with USDA employees in performing their duties.

VIOLATION: Failure to maintain custom exempt records.

NOTES: Violations cases were established by FSIS compliance officers based on the violations disclosed
during the OIG visits with compliance officers.




USDA/OIG-A/24601-4-At                                                              Section IV, Page 63
EXHIBIT G – VIOLATIONS DISCLOSED DURING OIG VISITS (CONT’)

TYPE OF                         DATE     ENFORCEMENT                            HISTORY
FIRMS         LOCATION VISITED ACTION                            DATE           ACTION       DATE
                                                                          1/
Custom      Bronx, NY       5/20/99    LOW                     6/11/99
Exempt
Slaughter
FINDING: Slaughtered and cut goats and failed to mark product “Not for Sale.”

VIOLATION: Failure to identify custom meat products as “Not for Sale.”

Distributor   Brooklyn, NY 5/20/99       LOW                  6/11/99    LOW            4/4/99
FINDING: Had in possession 29 pounds of unlabeled or unidentified product from unnamed source.
Some of the product was sold to customers.

VIOLATION: Failure to identify custom meat products as “Not for Sale.”

Custom        Jamaica, NY   5/20/99    LOW                    8/9/99      LOW                11/14/97
Exempt                                                                    LOW                8/10/98
Slaughter                                                                 LOW                1/14/99
FINDING: Slaughtered and cut lamb and failed to mark product “Not for Sale.” Also, failed to maintain
proper records.

VIOLATIONS: Failure to maintain custom exempt records and failure to identify custom exempt meat
products as “Not for Sale.”

                                          2/
Custom        Jamaica, NY     5/21/99          RAV              6/21/99    LOW              8/1/95
                                                                           3/
Exempt                                                                        PYV           1/5/96
                                                                           4/
Slaughter                                                                     NOI           11/24/97
                                                                           5/
                                                                              RAV
FINDING: Observed unsanitary conditions and adulterated products.

VIOLATION: Failure to maintain and operate facility in a sanitary manner causing meat products to
become adulterated.

NOTES:
1/
   The firm at this location, operated by a different owner, had a history of noncompliance.
2/
   “Report of Apparent Violation.”
3/
   Firm was ordered to report to DEO HQ to “Present Your Views.”
4/
   Firm was issued a “Notice of Ineligibility” for custom exempt slaughter practices.
5/
   “Report of Apparent Violation” case pending.
Key: LOW – Letter of Warning




 Section IV, Page 64                                                      USDA/OIG-A/24601-4-At
EXHIBIT H – VIOLATION CASES RECEIVED FROM DISTRICT OFFICES
            THAT WERE NOT REFERRED FOR PROSECUTION
                REASONS NOT REFER FOR
                    PROSECUTION
                                 NOT
        INSUFFICIENT           PROPERLY       ENFORCEMENT
 NUMBER   EVIDENCE            DEVELOPED OTHER    ACTION         COMMENT
 1            X                                   LOW
 2                                X               LOW
 3            X                                   LOW
 4            X                                   LOW
 5                                        X       LOW     Firm no longer in
                                                          business
 6                 X                              LOW
 7                 X                              NOA
 8                                        X       LOW     Firm prosecuted By
                                                          State
 9                 X                              LOW
 10                X                              LOW
 11                               X               LOW
 12                X                              LOW
 13                X                              LOW
 14                X                              LOW
 15                X                              NOA
 16                X                              LOW
 17                X                              LOW
 18                X                              LOW
 19                X                              LOW
 20                X                              LOW
 21                X                              LOW
 22                X                              NOA
 23                               X               LOW
 24                X                              LOW
 25                X                              LOW
 26                X                              LOW
 27                                       X       LOW     Firm no longer in
                                                          business
 Totals           21              3       3

 KEY: LOW = Letter of Warning, NOA = No Action




USDA/OIG-A/24601-4-At                                            Section IV, Page 65
Section IV, Page 66   USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 67
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




Section IV, Page 68                       USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 69
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




Section IV, Page 70                       USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 71
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




Section IV, Page 72                       USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 73
                            ABBREVIATIONS


ADME       -Assistant District Manager for Enforcement

DEO        -District Enforcement Operations

DR         -Departmental Regulation

FMIA       -Federal Meat Inspection Act

FSIS       -Food Safety and Inspection Service

FY         -Fiscal Year

HACCP      -Hazard Analysis and Critical Control Point

OGC        -Office of General Counsel

OIG        -Office of Inspector General

OPHS       -Office of Public Health and Science

PCP        -Planned Compliance Program

PPIA       -Poultry Products Inspection Act

USDA       -U.S. Department of Agriculture




USDA/OIG-A/24601-4-At                                    Section IV, Page 75
